<html>
<title> - H.R. 1629, H.R. 2424, AND H.R. 2966</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                  H.R. 1629, H.R. 2424, AND H.R. 2966

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 30, 2003

                               __________

                           Serial No. 108-63

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-584              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 30, 2003......................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Cummings, Hon. Elijah, a Representative in Congress from the 
      State of Maryland..........................................    45
        Prepared statement on H.R. 2424..........................    47
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement on H.R. 1629, H.R. 2424, and H.R. 2966     2
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................     4
        Prepared statement on H.R. 1629..........................     5

Statement of Witnesses:
    Calvert, Chad, Deputy Assistant Secretary, Land and Minerals 
      Management, U.S. Department of the Interior, Washington, 
      D.C........................................................     8
        Prepared statement on H.R. 1629..........................     9
        Prepared statement on H.R. 2424..........................    11
        Prepared statement on H.R. 2966..........................    13
    Knox, Matt, Chairman, Missouri River Stewards, Winifred, 
      Montana....................................................    36
        Prepared statement on H.R. 1629..........................    38
    Martin, Joanne M., Ph.D., President and CEO, The Great Blacks 
      in Wax Museum, Baltimore, Maryland.........................    32
        Prepared statement on H.R. 2424..........................    34
    Roeser, Jennifer A., Director, High Sierra Packers' 
      Association, Eastern Sierra Unit, and Owner, McGee Creek 
      Pack Station, Mammoth Lakes, California....................    23
        Prepared statement on H.R. 2966..........................    27
    Tureck, Hugo, Vice-Chairman, Friends of the Missouri Breaks 
      Monument, Coffee Creek, Montana............................    40
        Prepared statement on H.R. 1629..........................    42


 LEGISLATIVE HEARING ON H.R. 1629, TO CLARIFY THAT THE UPPER MISSOURI 
 RIVER BREAKS NATIONAL MONUMENT DOES NOT INCLUDE WITHIN ITS BOUNDARIES 
  ANY PRIVATELY OWNED PROPERTY, AND FOR OTHER PURPOSES; H.R. 2424, TO 
 AUTHORIZE ASSISTANCE FOR THE NATIONAL GREAT BLACKS IN WAX MUSEUM AND 
JUSTICE LEARNING CENTER; AND H.R. 2966, TO PRESERVE THE USE AND ACCESS 
OF PACK AND SADDLE STOCK ANIMALS ON PUBLIC LANDS, INCLUDING WILDERNESS 
  AREAS, NATIONAL MONUMENTS, AND OTHER SPECIFICALLY DESIGNATED AREAS, 
     ADMINISTERED BY THE NATIONAL PARK SERVICE, THE BUREAU OF LAND 
MANAGEMENT, THE UNITED STATES FISH AND WILDLIFE SERVICE, OR THE FOREST 
  SERVICE WHERE THERE IS A HISTORICAL TRADITION OF SUCH USE, AND FOR 
                            OTHER PURPOSES.

                              ----------                              


                       Tuesday, September 30, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Christensen, Tom 
Udall, Bordallo, Rehberg, and Cummings.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. The Subcommittee on National 
Parks, Recreation, and Public Lands hearing on H.R. 1629, H.R. 
2424, and H.R. 2966 will come to order. Good afternoon, 
everybody.
    Our first bill, H.R. 1629, is introduced by Congressman 
Denny Rehberg of Montana, which would clarify that the Upper 
Missouri River Breaks National Monument does not include within 
its boundaries any privately owned property.
    Our second bill is H.R. 2424, introduced by Congressman 
Elijah Cummings of Maryland, which would authorize assistance 
for the National Great Blacks in Wax Museum and Justice 
Learning Center, located in Baltimore.
    And our last bill is H.R. 2966, which I introduced, which 
would preserve the use and access of pack and saddle stock 
animals on public lands where there is a historical tradition 
of such use, including wilderness areas, National Monuments, 
and other specifically designated areas administered by the 
National Park Service, BLM, and the United States Fish and 
Wildlife Service and the Forest Service. While I introduced 
H.R. 2966 for a number of reasons, the driving force was to 
affirm my commitment to continued access of our public lands by 
ensuring trails, routes, and areas used by pack and saddle 
stock would remain open and accessible.
    Before turning the time over to Mrs. Christensen, I would 
ask unanimous consent that Mr. Rehberg and Mr. Cummings be 
permitted to sit on the dais following their statements. 
Without objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen, for any 
opening statement she may have. Donna?
    [The prepared statement of Mr. Radanovich follows:]

      Statement of The Honorable George P. Radanovich, Chairman, 
 Subcommittee on National Parks, Recreation, and Public Lands, on H.R. 
                     1629, H.R. 2424, and H.R. 2966

    Good afternoon. The hearing will come to order
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on three bills--H.R. 1629, H.R. 
2424 and H.R. 2966.
    Our first bill, H.R. 1629, introduced by Congressman Dennis Rehberg 
of Montana, would clarify that the Upper Missouri River Breaks National 
Monument does not include within its boundaries any privately owned 
property.
    Our second bill, H.R. 2424, introduced by Congressman Elijah 
Cummings of Maryland, would authorize assistance for the National Great 
Blacks in Wax Museum and Justice Learning Center, located in Baltimore, 
Maryland.
    And our last bill, H.R. 2966, which I introduced, would preserve 
the use and access of pack and saddle stock animals on public lands, 
where there is a historical tradition of such use, including wilderness 
areas, National Monuments, and other specifically designated areas 
administered by the National Park Service, the Bureau of Land 
Management, the United States Fish and Wildlife Service, and the Forest 
Service.
    While I introduced H.R. 2966 for a number of reasons, the driving 
force was to affirm my commitment to continued access of our public 
lands by ensuring trails, routes, and areas used by pack and saddle 
stock remain open and accessible.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Rehberg and Mr. Cummings be permitted to sit 
on the dais following their statements. Without objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

STATEMENT OF HON. DONNA M. CHRISTENSEN, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. Today, as you 
have said, this Subcommittee will consider three unrelated 
bills.
    The first, H.R. 1629, introduced by Mr. Rehberg, provides 
that the Upper Missouri Breaks National Monument shall not 
include within its exterior borders any privately owned 
properties. This is not a new subject for the Subcommittee. 
Last Congress, we considered identical legislation. At that 
time, there were some fundamental misconceptions regarding the 
impact of the National Monument proclamation, with perceptions 
holding more sway than the reality of the situation.
    Two points need to be stressed today. The first is that 
including private land within the exterior boundary does not 
make that land part of the National Monument. On that point, 
both the Monument proclamation and the Antiquities Act are 
clear.
    Second, neither the Monument proclamation or the 
Antiquities Act gives the BLM any authority to subject these 
lands to regulation and management as part of the Federal 
Monument unless, of course, those lands are acquired by the 
Federal Government. There has been a lot of focus on the Upper 
Missouri Breaks boundary map, which contains Federal, State, 
and private lands. This map reflects the fact that the public 
lands are intermingled with State and private lands in many 
sections and that Monument features bisect all these lands. 
This is not uncommon. Intermingled public and private lands are 
common in the West. Numerous, National Monuments and National 
Forests have such intermingled public and private lands.
    Members will need to look closely at H.R. 1629. This 
legislation calls into question not only the exterior boundary 
of the Upper Missouri Breaks National Monument, but also the 
basis for the boundaries of numerous National Monuments and 
National Forests around the country.
    Our second bill, H.R. 2424, sponsored by our colleague and 
our esteemed Chair of the Congressional Black Caucus, 
Representative Elijah Cummings, authorizes a $15 million grant 
to The Great Blacks in Wax Museum in East Baltimore. While the 
funding contained in the bill would come from the Department of 
Justice, members of this Subcommittee are interested to learn 
more regarding this unique and important museum of African-
American history and plans for expanding the Museum's existing 
facilities.
    Our final bill is H.R. 2966, a measure which you 
introduced, Mr. Chairman, regarding the use and access of pack 
and other saddle stock animals on Federal lands. H.R. 2966 
appears to raise a number of issues. By amending the organic 
statutes of the Federal land management agencies to enshrine 
such use, the bill appears to raise pack and saddle animal use 
above other public uses of Federal lands. Such public uses as 
hunting, fishing, and hiking have no similar right of access in 
these organic statutes. Furthermore, the legislation makes no 
provision for curtailment of a pack or saddle stock use for 
reasons of public health or safety or in an emergency, nor does 
the legislation address conflicts with other public uses or the 
management of natural and cultural resources. We should be 
extremely wary in singling out one particular public use for 
special treatment.
    Mr. Chairman, I appreciate the presence of our witnesses 
here this afternoon. I especially want to welcome our Chair, 
Elijah Cummings, and look forward to the insights on the 
legislation we are considering.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I will now move on to our first panel, which includes the 
Honorable Elijah Cummings, Representative from the 7th District 
of Maryland, who I believe stepped out. I know Mr. Cummings was 
stating that he had a bill to manage on the Floor. Can you 
check and see if he has stepped out? If not, we will move on to 
our other speaker for now. There are people and things coming 
in, but----
    [Laughter.]
    Mr. Radanovich. OK. I think Mr. Cummings had to leave to 
manage a bill on the Floor. We will leave it open for a 
different time in the hearing for Mr. Cummings to make a 
presentation.
    That being the case, I will refer to Mr. Dennis Rehberg, 
who is here to speak on H.R. 1629. Denny, welcome.

STATEMENT OF HON. DENNIS REHBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman. I really appreciate 
the fact that you would take time out of your busy schedule to 
schedule this hearing for me. Mrs. Christensen and Ms. 
Bordallo, welcome, and thank you again for listening to an 
issue that is very specific to Montana. It is not precedent-
setting for the rest of the country, but it is very important 
to the 127 landowners within the State of Montana.
    It allows us to address and debate an issue as old as our 
republic--private property rights. In fact, the issues before 
us today deal very much with the same concerns that led our 
Founding Fathers to declare their independence from an 
overbearing monarchy almost 300 years ago. Those Founding 
Fathers clearly codified private property rights in the 
Constitution, yet those rights are currently being challenged 
in the form of a boundary to a National Monument located in the 
State of Montana.
    In the late hours of January 17, 2001, President Clinton 
and Interior Secretary Bruce Babbitt created the Upper Missouri 
River Breaks National Monument, encompassing nearly 400,000 
acres of federally owned land. With less than 90 hours 
remaining in his Presidency, the administration made this 
designation without consulting county officials, the Governor, 
the Congressional delegation, or the private property 
landowners whom the designation would indirectly affect.
    In the rush to complete his Executive Order designating the 
Monument, President Clinton included more than 80,000 acres of 
private land in its boundaries. Ranchers and farmers that have 
worked the same land for generations woke up on January 18 of 
2001 to find their family farms now part of an enormous new 
Federal Monument. Overnight, and despite their opposition, 
those 127 landowners found themselves and their land gobbled up 
by the Federal Government.
    Let there be no mistake, Mr. Chairman. The Federal 
Government's decision to include more than 80,000 acres of 
private land in the Monument's boundary sends one clear and 
unmistakable message to the families involved: Washington wants 
your land.
    They called on me as their voice in Washington to remedy 
the debacle that Washington had created in Montana, so I 
introduced legislation last year. It was favorably reported 
from this Committee, and I reintroduce it this year to do one 
thing, remove private property from within the boundary lines 
of the Upper Missouri River Breaks National Monument.
    H.R. 1629, the Upper Missouri River Breaks Boundary 
Clarification Act, is carefully crafted, I repeat, carefully 
crafted to help Montana landowners while at the same time 
preserving Federal management of the Monument itself. Local 
support for this effort is great. In fact, on March 24, 2003, a 
citizen delegation presented me with a petition supporting my 
legislation, signed by more than 3,000 Montanans, most of whom 
live inside or near the Breaks boundary.
    I would like to, with unanimous consent, include that 
petition in the hearing record, along with official letters of 
support from the majority of the Montana State House and State 
Senate; letters of support from the American Farm Bureau, who 
are in the audience; letters of support from the National 
Cattlemen's Beef Association, the Montana Stock Growers, and 
the Montana Farm Bureau; letters of support from the State 
Senator Ed Butcher--he represents the folks in the Monument 
area; letters of support from landowners Tom and Gladys Walling 
of Winifred, Montana--they own 320 acres in the Monument 
boundary; and letters from the county commissioners, who 
unanimously have opposed including private property and support 
this bill. I might add, in Montana, our counties are 
represented by three county commissioners each, Republicans, 
Democrats, and Independents alike, and they unanimously support 
this legislation.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Rehberg. Thank you, Mr. Chairman.
    [NOTE: The petition and letters of support submitted for 
the record has been retained in the Committee's official 
files.]
    [The prepared statement of Mr. Rehberg follows:]

   Statement of The Honorable Dennis R. Rehberg, a Representative in 
            Congress from the State of Montana, on H.R. 1629

    Mr. Chairman, thank you for scheduling this hearing today. It 
allows us to address and debate an issue as old as our republic--
private property rights. In fact, the issues before us today deal very 
much with the same concerns that led our Founding Fathers to declare 
their independence from an overbearing monarchy almost three hundred 
years ago.
    Those Founding Fathers clearly codified private property rights in 
the Constitution. Yet those rights are currently being challenged in 
the form of a boundary to a National Monument located in the State of 
Montana.
    In the late hours of January 17, 2001, President Clinton and 
Interior Secretary Bruce Babbitt created the Upper Missouri River 
Breaks National Monument--encompassing nearly 400,000 acres of 
federally owned land.
    With less than ninety hours remaining in his presidency, the 
Administration made this designation without consulting county 
officials, the governor, the congressional delegation, or the private 
property landowners whom the designation would directly affect.
    In the rush to complete his Executive Order designating the 
Monument, President Clinton included more than 80,000 acres of private 
land in its boundaries.
    Ranchers and farmers that have worked the same land for generations 
woke up on January 18, 2001, to find their family farms now part of an 
enormous new federal Monument. Overnight--and despite their 
opposition--those 127 landowners found themselves--and their land--
gobbled up by the federal government.
    Let there be no mistake Mr. Chairman, the federal government's 
decision to include more than 80,000 acres of private land in the 
Monument's boundary sends one clear and unmistakable message to the 
families involved: ``Washington Wants Your Land.''
    They called on me, as their voice of Montana in Washington, to 
remedy the debacle that Washington had created in Montana. So I 
introduced legislation last year--it was favorably reported from this 
Committee. And I re-introduced that this year to do one thing--remove 
private property from within the boundary of the Upper Missouri River 
Breaks National Monument.
    H.R. 1629, the Upper Missouri River Breaks Boundary Clarification 
Act H.R. 1629 is carefully crafted to help Montana landowners, while at 
the same time preserving federal management of the Monument itself. 
Local support for this effort is great--in fact, on March 24, 2003, a 
citizen delegation presented me with a petition supporting my 
legislation signed by more than 3,000 Montanans, most of whom live 
inside or near the Breaks boundary.
    In fact, I move to include this tremendous showing of local public 
support in the official hearing record.
    President Clinton used the Antiquities Act of 1906 to create the 
Monument in the dark of night, but the Antiquities Act specifically 
mandates that lands included in a Monument, quote, ``shall be confined 
to the smallest area compatible with the proper care and management of 
the object to be protected.'' In the case of this particular Monument, 
the Washington, D.C., powers-that-be deliberately ignored that 
provision of the Antiquities Act and extended the Monument boundary as 
they saw fit.
    As you can clearly see from the map at the front of the room,--
private property is indicated by the bright pink color--the boundary of 
the Monument was not confined to the smallest area compatible. It is 
difficult to understand how all that bright pink up there equals ``the 
smallest area compatible''--it seems like there are enormous areas of 
bright pink on that map.
    Mr. Chairman, private property was included not for proper care and 
management of the Monument, but for future acquisition and inclusion in 
the Monument. Officials at the BLM have stated as much publicly.
    My point in bringing this to the Committee's attention is that the 
inclusion of more than 80,000 acres of private property represents 
blatant abuse of the Antiquities Act. And frankly, it ultimately brings 
into question the legality of the Monument.
    But my point in coming before the Committee today with my 
legislation is not to question the legality of the Monument. Make no 
mistake, Mr. Chairman, I support the Monument. I support protection of 
this resource. My legislation, though, represents the landowners in my 
state who wish to be taken out of its boundaries.
    As various lobbying organizations from Washington, D.C., and 
Montana have geared up for the debate over this legislation, one fact 
seems to have been tossed aside in the stampede: none of the folks 
opposed to my legislation are personally impacted by the Monument 
boundary. In fact, the opposition witness we will hear from today lives 
outside the Monument boundary.
    H.R. 1629 has the unanimous support of locally elected county 
commissioners representing the Upper Missouri River Breaks National 
Monument. H.R. 1629 has the strong support of Governor Martz. The 
largest daily newspaper in the region, The Great Falls Tribune, long an 
advocate for the Monument, has editorialized in support of my 
legislation. Quoting now from the editorial: ``In addition to a clear 
map they can hold up when a tourist wanders onto their land, what the 
landowners are seeking is anything that might give them more leverage 
down the road in the event the larger public interest doesn't square 
with their own...We don't see much of a downside to that, the original 
framers of the Monument shouldn't either.''
    But most importantly Mr. Chairman, this legislation has the strong 
support of the private landowners who are actually affected by the 
Monument designation and boundary. 3,300 local residents took the time 
to sign a petition supporting this legislation. 3,300 people. In the 
end, that should be all that matters to this Committee and the 
Congress.
                                 ______
                                 
    Mr. Radanovich. President Clinton used the Antiquities Act 
of 1906 to create the Monument in the dark of night, but the 
Antiquities Act specifically mandates that lands included in 
the Monument, quote, ``shall be confined to the smallest area 
compatible with the proper care and management of the object to 
be protected.'' In the case of this particular Monument, the 
Washington, D.C., powers that deliberately ignored that 
provision of the Antiquities Act and extended the Monument 
boundary as they saw fit.
    As you can clearly see from the map, and I believe you have 
one in your packet, the private property is indicated by the 
bright pink color. The boundary of the Monument was not 
confined to the smallest area compatible. It is difficult to 
understand how all the bright pink up there equals the smallest 
area compatible. It seems like there are enormous areas of pink 
on that map.
    Mr. Chairman, private property was included not for proper 
care and management of the Monument, but for future acquisition 
and inclusion in the Monument. Officials at the BLM have stated 
as much publicly.
    My point in bringing this to the Committee's attention is 
that the inclusion of more than 80,000 acres of private 
property represents blatant abuse of the Antiquities Act, and 
frankly, it ultimately brings into question the legality of the 
Monument.
    But my point in coming before the Committee today with this 
legislation is not to question the legality of the Monument. 
Make no mistake, Mr. Chairman. I support the Monument. I 
support protection of this resource. My legislation, though, 
represents the landowners in my State who wish to be taken out 
of its boundaries.
    As various lobbying organizations from Washington, D.C., 
and Montana have geared up for the debate, one fact seems to 
have been tossed aside in the stampede. None of the folks 
opposed to my legislation are personally impacted by the 
Monument boundary. In fact, the opposition witness we will hear 
from today does not own property within the boundary.
    H.R. 1629 has the unanimous support, as I said, of the 
local county commissioners, the Governor, the legislators. The 
largest daily newspaper in the region, The Great Falls Tribune, 
long an advocate for the Monument, has editorialized in support 
of my legislation. Quoting now from the editorial, ``In 
addition to a clear map they can hold up when a tourist wanders 
onto their land, what the landowners are seeking is anything 
that might give them more leverage down the road in the event 
the larger public interest doesn't square with their own. We 
don't see much of a downside to that. The original framers of 
the Monument shouldn't, either.''
    But most importantly, Mr. Chairman, this legislation has 
the strong support of the private landowners who are actually 
affected by the Monument designation and boundary. Thirty-
three-hundred local residents took the time to sign a petition 
supporting this legislation. Thirty-three-hundred people. In 
the end, that should be all that matters to this Committee and 
to Congress.
    Thank you, and I ask unanimous consent to put this in the 
record.
    Mr. Radanovich. Thank you, Mr. Rehberg. I appreciate your 
testimony.
    Any questions of Mr. Rehberg?
    [No response.]
    Mr. Radanovich. All right. That concludes our first panel. 
Again, the Honorable Elijah Cummings had to leave for Floor 
duty, I believe, but is welcome to come back and make his 
statement for the Committee any time during the time that the 
Committee is doing business.
    Next up is panel two, Mr. Chad Calvert, who is the Deputy 
Assistant Secretary of Land and Minerals Management, Department 
of the Interior in Washington, D.C., and former employee of the 
incredible George Radanovich.
    Chad, welcome to the Committee. It is good to see you. Of 
course, Chad is here to speak on H.R. 1629, H.R. 2424, and H.R. 
2966, all the bills that we will be hearing about. Chad, 
welcome to the Committee.

STATEMENT OF CHAD CALVERT, DEPUTY ASSISTANT SECRETARY, LAND AND 
     MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, 
                        WASHINGTON, D.C.

    Mr. Calvert. Thank you, Congressman. Thank you, members of 
the Committee. It is my honor and privilege to be here 
testifying before this Subcommittee, in particular, for my 
first hearing on the House side.
    I would like to ask in advance that my statements be made 
part of the public record and I am going to summarize them.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Calvert. With regard to H.R. 1629, I have to say that I 
think the Congressman has already made the compelling case for 
his bill and the Department supports the bill, particularly 
because it would provide additional certainty to private and 
State owners of land located within the boundaries and that the 
designation itself and the management plan should have no 
effect on their property rights.
    The proclamation signed in January 2001 designed 377,000 
acres as National Monument, running along 150 miles of the 
river. It included large blocks of the Wild and Scenic River 
Corridor and land management by the BLM, as well as land 
managed by the U.S. Fish and Wildlife Service. The Monument 
boundary also includes nearly 82,000 acres inside of it of 
private land and 39,000 acres of State land.
    It is true, it is not uncommon for management units to 
encompass scattered private and State lands, but this Monument 
actually includes more private and State land acreage than any 
other. It is more scattered, and there are certainly more 
individual landowners than in any other National Monument.
    So it presents a number of difficult management questions 
for the managing agency about how they work with local 
landowners, how they engage people to be cooperative in their 
management of the Monument, and how to move forward in a 
supportive manner with those people.
    The language of the proclamation does state clearly that 
the Monument itself is established lands and interest in lands 
owned and controlled by the United States within the boundaries 
of the area described on the map, consisting of approximately 
377,000 acres. On these Federal lands, the Monument 
proclamation imposed a number of restrictions. However, it is 
clear that these restrictions are not meant to apply to private 
or State land within the Monument.
    This legislation offered by Representative Rehberg would 
help reassure those who express concerns, notably 3,300-plus of 
them from the State of Montana, regarding this proclamation. It 
would reaffirm that private lands are not within the boundary--
I am sorry, are not a part of the Monument, and it would direct 
the Department of Interior to provide a map for management 
planning purposes to reflect the actual Federal lands that make 
up the Monument itself.
    The Department would urge the Committee to reflect on 
Section 2(a) and insert, in lieu of any privately owned 
property to include any land that is not owned by the Federal 
Government, which would allow for the State lands to receive 
the same treatment as the private lands under the bill.
    With that, I would conclude my testimony on that bill and 
move just briefly to testimony on H.R. 2424, The Great Blacks 
in Wax Museum and Justice Learning Center.
    [The prepared statement of Mr. Calvert follows:]

    Statement of Chad Calvert, Deputy Assistant Secretary, Land and 
   Minerals Management, U.S. Department of the Interior, on H.R. 1629

    Thank you for giving me the opportunity to testify on behalf of the 
Department of the Interior on H.R. 1629, the Upper Missouri River 
Breaks Boundary Clarification Act. While we believe that the 
Presidential proclamation establishing the Monument makes it clear that 
the proclamation covers only Federally-owned lands within the Monument 
boundaries, the Department supports H.R. 1629 because it would provide 
additional comfort to the private and state owners of lands located 
within the Monument boundaries that the Monument designation will not 
impact management of their lands. This will also help us to engage some 
of our local partners in a more constructive fashion that we believe 
will result in a more broadly supported management plan for the Upper 
Missouri River Breaks National Monument.
    President Clinton created the Upper Missouri River Breaks National 
Monument by Proclamation 7398 on January 17, 2001, under the 
Antiquities Act of 1906. The Antiquities Act allows the President in 
certain circumstances to create a Monument from land that is owned or 
controlled by the United States. The Proclamation stated clearly that 
the Monument consists of ``all lands and interests in lands owned or 
controlled by the United States within the boundaries of the area 
described on the map entitled 'Upper Missouri River Breaks National 
Monument' attached to and forming part of this proclamation.'' The 
problem is that the map showed boundaries that enclosed private and 
state land as well--not just Federally-owned or controlled lands. It 
was undoubtedly intentional that the map boundaries enclosed private 
and state land as well, because the Proclamation also said ``Lands and 
interests in land within the proposed Monument not owned by the United 
States shall be reserved as a part of the Monument upon acquisition of 
title thereto by the United States.'' The Proclamation makes no claim 
to non-Federal property within the area that it identifies as the 
Monument. The legal uncertainty created by the Proclamation goes to the 
status of non-Federal land within this area that the Federal Government 
may later acquire, not to the scope of the Federal Government's current 
interests or even to the reach of its existing acquisition authorities. 
Although the uncertainty created by the Proclamation does not affect 
the security of title held by private and state landowners, it may 
affect their interests. If land that the United States acquires within 
the Monument area automatically obtained Monument status, as the 
Proclamation asserts, the prospects for economic activity in the region 
could be altered. Accordingly, private and state landowners can benefit 
significantly from congressional reaffirmation of the status of these 
non-Federal lands. The Department of the Interior supports H.R. 1629 as 
a means of providing that reaffirmation to residents of the Upper 
Missouri Breaks area.
Background
    The proclamation designated 377,346 acres of Federal lands as a 
National Monument, running along 149 miles of the Missouri River. It 
includes the Wild and Scenic River corridor of the Upper Missouri River 
as well as large blocks of land managed by the Bureau of Land 
Management, and a small number of acres managed by the U.S. Fish & 
Wildlife Service. The Monument boundary also contains nearly 82,000 
acres of private land and 39,000 acres of state land.
    The language of the proclamation states clearly that the Monument 
itself is established on ``all lands and interests in lands owned or 
controlled by the United States within the boundaries of the area 
described on the map...consist[ing] of approximately 377,346 acres...'' 
On these Federal lands, the Monument proclamation imposed a number of 
restrictions, including the withdrawal from entry, location, selection, 
sale or leasing under the public land laws, the mining laws and mineral 
leasing laws. It also prohibits off road motorized and mechanized 
vehicle use, except for emergency or administrative purposes. The 
proclamation does provide for continued livestock grazing and 
management of oil and gas development on existing leases.
    The formal planning for the Monument began on April 24, 2002, with 
the publication of a notice in the Federal Register. During the 120-day 
scoping period in the summer of 2002, the BLM's Lewistown Field Office 
hosted a series of 11 open houses throughout north central Montana.
    In July of 2003, the Lewistown Field Office again held public 
meetings in 11 north central Montana communities, this time to begin 
formulating alternatives for the Resource Management Plan (RMP). These 
meetings included a short formal presentation by the BLM, one-on-one 
discussions between the public and resource specialists, and an open 
forum moderated by a member of the Central Montana Resource Advisory 
Council. Approximately 350 members of the public attended the 11 
meetings. The Field Office also received approximately 8,500 letters 
and emails regarding potential alternatives. Governor Martz established 
a task force that made recommendations concerning the Monument and its 
management. This input along with all other comments and 
recommendations are currently being reviewed and considered.
    The draft RMP is scheduled for release in the summer of 2004. 
During the public comment period following release of the draft, the 
BLM will hold another 11 public meetings across north central Montana 
to review the document. Throughout the process, the Monument staff will 
continue to engage the public through regular updates on its website 
and through mailings as well as through local media outlets.
The Status of Non-Federal Lands Within the Monument
    The Antiquities Act of June 8, 1906, authorizes the President to 
designate National Monuments on lands owned or controlled by the 
Federal Government at the time of the Monument proclamation. The 
Antiquities Act states, ``The President of the United States is 
authorized, in his discretion, to declare by public proclamation 
historic landmarks, historic and prehistoric structures, and other 
objects of historic or scientific interest that are situated upon the 
lands owned or controlled by the Government, and may reserve as part 
thereof parcels of land, the limits of which in all cases shall be 
confined to the smallest area compatible with the proper care and 
management of the objects to be protected.''
    The proclamation of January 17, 2001, sets apart and reserves lands 
and interests in lands owned or controlled by the United States within 
the boundaries of the National Monument described on the map made part 
of the proclamation. The proclamation also recognizes the standing of 
all valid, existing rights and interests within the Monument 
boundaries. Although the proclamation makes clear that non-federal 
lands within the boundary of the Monument are not a part of the 
Monument, owners of private and state land within the Monument remain 
concerned about the Monument's implications for non-federal lands. On 
June 30, 2003, the BLM's Lewistown Field Office issued a report 
entitled, ``The Upper Missouri Breaks National Monument--Analysis of 
the Management Situation.'' In that report, it states, ``The BLM has no 
jurisdiction over State or private land contained within the Monument 
boundary.'' We believe H.R. 1629 adds legal finality to this statement.
H.R. 1629
    The legislation offered by Representative Rehberg would help 
reassure those who have expressed concerns regarding the proclamation 
of January 17, 2001. It would reaffirm that private lands are not 
within the boundary of the Upper Missouri River Breaks National 
Monument and it would direct the Department of the Interior to provide 
a map for management planning purposes to reflect the actual federal 
lands that make up the Monument itself.
    H.R. 1629 would give non-Federal landowners the assurance that 
their cooperation is voluntary and, hopefully, will improve their 
participation as partners with our Federal land managers. The 
Department notes that this in no way prevents willing sellers from 
working with the Administration to add their lands to the Monument 
where all parties believe it is appropriate.
    The Department urges the Committee to amend Section 2(a) of the act 
by striking ``any privately owned property'' and inserting in lieu 
thereof ``any property not owned or controlled by the Federal 
Government at the time of issuance of that Proclamation.'' The 
legislation currently refers only to privately owned property, which 
leaves out the roughly 39,000 acres of state-owned lands. We believe 
that the same assurances provided to private landowners should also be 
given to the State of Montana and any other non-Federal landowner that 
might possess property within the proclamation boundary.
Conclusion
    This concludes my statement. I will be happy to answer any 
questions the Committee may have for me.
                                 ______
                                 
    Mr. Calvert. The Department actually has no, to our 
knowledge, sees no connection to the National Park Service 
program in this bill and the money would be a pass-through 
grant administered by the Department of Justice, and for that 
reason, we would defer in our testimony and our position on 
this bill to the Department of Justice.
    I would be happy to pass along any questions on the bill to 
the Department of Justice, but unfortunately, I will not be 
able to answer any on this bill.
    [The prepared statement of Mr. Calvert follows:]

    Statement of Chad Calvert, Deputy Assistant Secretary, Land and 
   Minerals Management, U.S. Department of the Interior, on H.R. 2424

    Mr. Chairman, thank you for the opportunity to appear before your 
Committee to present the views of the Department of the Interior on 
H.R. 2424, a bill to authorize assistance for the National Great Blacks 
in Wax Museum and Justice Learning Center.
    H.R. 2424 would authorize assistance for the National Great Blacks 
in Wax Museum and Justice Learning Center in Baltimore, Maryland, 
administered by a non-profit group, The Great Blacks in Wax Museum, 
Inc. The Museum features wax figures and related interactive 
educational exhibits that celebrate the history of Black Americans. The 
bill authorizes $15 million from the Department of Justice to pay the 
federal share of the costs of expanding the Museum and creating the 
Justice Learning Center.
    H.R. 2424 does not appear to provide any role for the Department of 
the Interior with the National Great Blacks in Wax Museum nor are we 
aware of any connection this museum has with any National Park 
programs. We therefore, defer to the Department of Justice for its 
position on this legislation.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other Committee members might have.
                                 ______
                                 
    Mr. Calvert. And on H.R. 2966, a bill offered by Mr. 
Radanovich, Mr. Nunez, Mr. Rehberg, and others, it is a bill to 
preserve the use and access of pack and saddle stock animals on 
public lands.
    In my capacity, I will work directly only with the Bureau 
of Land Management, but it is my distinct pleasure today to 
speak on behalf of the other Interior agencies, notably the 
National Park Service and Fish and Wildlife Service.
    The administration supports the goals of this bill. 
However, we would like to work with the Committee to clarify 
several points as you move forward in the process.
    We do support continuing to provide access for pack and 
saddle stock animals on our public lands. Using these animals 
is often the most appropriate way for visitors to enjoy many 
back-country landscapes that are otherwise inaccessible.
    On BLM lands alone, 73,000 recreational visits in 2002 are 
attributed to horse and animal pack stock recreational use, and 
it is our intention to assure that opportunities for that type 
of use remain available on the public lands managed by the 
Department of Interior.
    The Department believes two points, however, should be 
clarified in the legislation. The bill requires the Secretaries 
of Interior and Agriculture to provide for management of lands, 
to preserve or facilitate continued use and access where there 
is historical tradition of such use. It also allows reductions 
in the use of that access on lands only after complying with 
the full review process required under NEPA. I would like to 
address the NEPA issue first.
    In my statement, I mentioned that the legislation, the 
Department feels that the legislation is unnecessary. We do so 
because it is our view that we already fully comply with NEPA 
whenever we make decisions about land uses. We do this in a 
number of ways. First, our land management plans, our park 
plans, comprehensive conservation plans for refuges, Monument 
plans, wilderness plans, and any other comprehensive land plans 
that we do are all subject to NEPA. These typically utilize 
Environment Impact Statements that include a full public 
comment period.
    We also use in our management decisions, where appropriate, 
environmental analysis and FONZIs, categorical exclusions, and, 
where appropriate, full Environmental Impact Statements, and 
these decisionmaking processes all fully comply with NEPA.
    Temporary collusions and reductions are usually allowed for 
management plans, but on occasion may be conducted pursuant to 
a categorical exclusion or an EA FONZI. Depending on the 
Bureau, temporary closures include measures to protect wildlife 
habitat, the vegetation, as well as health and safety of the 
visitors. There are also different provisions for addressing 
closures relating to emergency reasons, such as fires and 
floods.
    The other thing that we would like to point out is that 
this legislation potentially sets up a conflicting priority for 
recreational use for certain agencies. For example, permitted 
uses in the National Wildlife Refuges must be compatible for 
the purposes for which each refuge was established. They must 
also comply with the six wildlife-dependent priority public 
uses--hunting, fishing, wildlife observation and photography, 
and environmental education and interpretation--that Congress 
established in the 1997 National Wildlife Refuge System 
Improvement Act. The Fish and Wildlife Service embraces these 
six uses as the core of their mission. We are concerned that 
additional prescribed uses would alter the balance among 
competing recreational uses that are currently achieved through 
the land planning process.
    That completes my statement, Mr. Chairman, and I would be 
happy to answer any questions.
    Mr. Radanovich. Thank you, Mr. Calvert.
    [The prepared statement of Mr. Calvert follows:]

    Statement of Chad Calvert, Deputy Assistant Secretary, Land and 
   Minerals Management, U.S. Department of the Interior, on H.R. 2966

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 2966, to preserve the use and 
access of pack and saddle stock animals on public lands, including 
wilderness areas, National Monuments, and other specifically designated 
areas, administered by the National Park Service (NPS), the Bureau of 
Land Management (BLM), the United States Fish and Wildlife Service 
(FWS), and the Forest Service where there is a historical tradition of 
such use.
    We share the goal of ensuring that the use and access of pack and 
saddle stock animals remains a viable recreational option on public 
lands where those activities are currently provided. However, this 
legislation is unnecessary because the Department already complies with 
the National Environmental Policy Act of 1969 (NEPA) when making 
decisions concerning recreation use, including the use of environmental 
assessments and categorical conclusions where appropriate. As described 
more fully below, the Department does have concerns with provisions in 
the bill that appear to give more weight to one recreational use than 
to others without consideration of the agency's mission.
    Providing appropriate recreational opportunities on federal lands 
is an important priority for the Department. Traveling through the 
backcountry with pack and saddle stock animals is an enjoyable, 
practical, and meaningful way to experience some of the most 
magnificent landscapes our country has to offer. For example, it has 
long been a recreational attraction for visitors to our beautiful 
National Parks in the Sierra Nevada and Rocky Mountains, in particular. 
On BLM lands alone, 73,000 recreational visits in 2002 were attributed 
to horse or animal pack stock recreational use. It is our intention to 
ensure that opportunities for this type of recreational use remain 
available on the public lands managed by the Department.
    H.R. 2966 would require the Secretaries of the Interior and 
Agriculture to provide for the management of lands under their 
respective jurisdictions to preserve and facilitate the continued use 
and access of pack and saddle stock animals on lands where there is a 
historical tradition of such use. It would allow the two Secretaries to 
implement a proposed reduction in the use and access of pack and saddle 
stock animals on such lands only after complying with the full review 
process required under NEPA.
    The Department believes that the provisions that apply NEPA to any 
proposed changes in stock use are redundant. Under existing law, 
changes in recreational uses on public lands are made through public 
planning processes, such as proposed revisions to general management 
plans for units of the National Park System, land use plans or activity 
plans for BLM lands, and comprehensive conservation plans for National 
Wildlife Refuges administered by FWS. These planning processes are all 
subject to NEPA, and all offer ample opportunities for public 
participation in the decision-making process.
    In addition to these plans, the Department also complies with NEPA 
when developing its wilderness management plans. For example, while BLM 
generally allows the recreational use of pack stock in wilderness 
areas, in some instances, the wilderness management plan prescribes 
certain limitations. In Aravipa Canyon Wilderness, horses and pack 
stock are limited to five per party, and stock use within the canyon 
itself is limited to day use. This policy is in place for the 
protection of sensitive riparian vegetation and as a result of 
conflicts with other recreation users in the narrow canyon corridor. In 
Paria Canyon-Vermillion Cliffs Wilderness, for safety reasons, the 
horses and pack stock are not allowed in the Coyote Butte Special 
Management Area, and commercial use is limited in the narrow upper two 
thirds of the Paria Canyon. The slick rock environment is not suitable 
for horse or pack stock travel and creates unsafe conditions for 
recreational users.
    National parks with backcountry recreational stock use typically 
have a pack horse plan or equivalent plan supported by environmental 
analysis and public disclosure under NEPA. Sequoia and Kings Canyon 
National Parks have a very sophisticated program for managing pack and 
saddle use that provides for stock use when and where it is 
appropriate, while protecting park resources. Rocky Mountains National 
Park has a horse plan in effect that has resolved many longstanding 
controversies between stock users and hikers.
    In addition to decisions made during the planning process, 
temporary closures to recreation uses made by the Department also meet 
NEPA requirements by qualifying for a categorical exclusion or 
undergoing a separate environmental assessment. Categorically excluded 
actions fully comply with NEPA under the implementing regulations of 
the Council on Environmental Quality, which allow agencies to exclude a 
category of actions from detailed NEPA analysis based on an agency 
finding that such category of actions do not have a significant effect 
on the quality of the human environment. Temporary closures include 
measures to protect wildlife habitat, vegetation and, in some cases, 
the health and safety of visitors.
    All recreational activities that occur on federal lands should be 
compatible with the respective agency's mission. By statute, for 
example, all uses of refuges must be compatible with the purposes for 
which each individual National Wildlife Refuge was established. The FWS 
has concerns that the legislation appears to be in conflict with the 
six wildlife-dependent priority public uses (hunting, fishing, wildlife 
observation and photography, and environmental education and 
interpretation) that Congress established in the National Wildlife 
Refuge System Improvement Act of 1997. FWS views these six uses as 
consistent with its mission. For FWS and other agencies, we are 
concerned that this legislation would alter the balance among competing 
recreational uses currently achieved through their respective planning 
processes.
    Mr. Chairman, this concludes my remarks. I would be happy to 
respond to any questions that you or the other members of the 
Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. I have a couple questions regarding H.R. 
2966, my bill. The questions are long, so I am going to read it 
out. If I have to read it twice, that is fine.
    Mr. Calvert, in your testimony, you state that the U.S. 
Fish and Wildlife Service is concerned that my legislation is 
in conflict with the six wildlife-dependent priority public 
uses, namely hunting, fishing, wildlife observation, 
photography, and environmental education and interpretation. 
However, would you agree that all of those listed wildlife-
dependent priority public uses can be accomplished on foot? In 
other words, how is a pack and saddle animal use a conflicting 
or competing interest, if you will, with those listed uses?
    Mr. Calvert. I would like to, if I may, respond more fully 
in writing in case I miss something the Fish and Wildlife 
Service would like to add. However, the response that I can 
give you is that the agency views those six statutory 
compatible uses as the priority uses that they have before 
them, and to add another use that potentially is higher in 
priority than those presents a conflict for them that they are 
not--it is not clear in the bill how you intend to reconcile 
the stock and saddle animal use with those uses if there is a 
conflict.
    Mr. Radanovich. You don't view them as competing uses, 
rather a statement of priority, one over the other?
    Mr. Calvert. Not necessarily, but they could be.
    Mr. Radanovich. Another long question. In your testimony, 
you state that the agency is attempting to implement temporary 
trail closures may qualify for a categorical exclusion in 
compliance with NEPA under the regulations of the Council on 
Environmental Quality and would then be allowed to forego a 
detailed NEPA analysis. Is it possible, then, that certain 
administrations may be afforded the ability to hide behind that 
categorical exclusion in an attempt to close the trail?
    Mr. Calvert. Well, categorical exclusions are only 
available where, first of all, they have been defined by the 
Department as an available categorical exclusion, but second 
and more importantly, if they meet any of the extraordinary--if 
circumstances meet any of the extraordinary circumstances 
provided in the law, then the categorical exclusion can't be 
used, and those extraordinary circumstances can be things as 
simple as heightened public controversy.
    So, technically, categorical exclusions are used where you 
need to be fully compliant with NEPA but where you feel that 
your other NEPA documentation is already complete.
    Mr. Radanovich. Thank you. Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    My questions are on H.R. 1629 particularly. Mr. Calvert, 
you said in your testimony that while the Monument proclamation 
doesn't affect the security of title held by private or State 
landholders, it might affect their interests. Can you explain 
what interests might be affected and how they would be 
affected?
    Mr. Calvert. I can't make the case for them. I understand 
that there are a number of concerns that they have. It is the 
Department's view as well as the Bureau of Land Management's 
stated view that we have no jurisdiction over those private and 
State lands. However, they have legitimate questions as to why, 
in a number of circumstances, the boundary lines were drawn 
through their private land as opposed to around only Federal 
land, and in order to try to provide a more cooperative spirit 
in the development of the management plan for the Monument, the 
Department feels it is important to give those people 
additional certainty. For whatever reason, they feel that their 
title could be affected in the future.
    Mrs. Christensen. Your testimony also says that by 
including private property in the exterior boundary, the 
Monument creates a legal uncertainty, and I guess that sort of 
must relate to the answer that you just gave me, but I am 
wondering, also, is it your assertion that all National 
Monuments that have private property in their exterior 
boundaries also have legal uncertainty? This is really 
important to me, because I have in-holdings in my own parks. Is 
that the Department's position?
    Mr. Calvert. No. It is important to distinguish, first of 
all, the difference between the park Monuments, those that have 
been set up to be administered by the National Park Service, 
and this new raft of Monuments that were designated that were 
handed over to the Bureau of Land Management. The Bureau of 
Land Management had no practices in place to respond to that 
and it was really dealing with these issues as sort of a first 
impression.
    The question isn't about necessarily what the status is for 
the in-holdings. The question is, what is the purpose of the 
boundary where it crosses private land only, and there are a 
number of circumstances where that occurs in the Upper Missouri 
River Breaks Monument, where the boundary wasn't drawn the most 
narrowly, or as narrowly as it could have been. It was drawn 
instead across private land, and those people have, I think, a 
legitimate question in that what does this mean for me. Why is 
this boundary running across my Federal land?
    Mrs. Christensen. I would imagine, I know in our case, the 
boundaries were placed where they were placed for a particular 
reason, because of the need to protect certain resources. Is it 
possible that those boundaries were drawn in an arbitrary 
fashion rather than for a specific reason that can be justified 
to the landowners?
    Mr. Calvert. Well, anything is possible. I can't speak to 
what the motivations were specifically about drawing the 
boundary where it was drawn. It is my assumption that they 
attempted to, particularly on the Western side of the Monument, 
to capture the natural geology that runs along the river and 
the features that accompany the Wild and Scenic River Corridor.
    With regard to the Western side, I really can't--or, I am 
sorry, the Eastern side, where it sort of balloons there up 
above, I really can't speak to the motivations for drawing the 
boundaries in one place or another.
    Mrs. Christensen. Has the Federal Government threatened or 
otherwise adversely affected the private property rights on the 
35,000-plus acres of private land in the Upper Missouri Wild 
and Scenic River that was designated in 1976 and which is also 
within the exterior boundary of the National Monument?
    Mr. Calvert. Not to my knowledge.
    Mrs. Christensen. Deputy Assistant Secretary Morrison 
testified last year that the Department was doing a study of 
private lands within National Monuments. What discussions have 
there been in the Department on the legal status of private 
lands within the National Monuments?
    Mr. Calvert. To the extent that the Solicitor's Office has 
attempted to analyze the questions that we discussed a moment 
ago about the effect of the boundary, those discussions have 
been internal to the Solicitor's Office. There are several 
divisions of the Solicitor's Office which each respond to 
different clients within the Department and the discussions 
have been between those offices. To my knowledge, there are no 
plans to issue an official opinion of the Solicitor's Office.
    Mrs. Christensen. So is the study ongoing?
    Mr. Calvert. There wasn't a study in a formal sense. There 
was an analysis that the Solicitor's Office and its individual 
divisions were attempting to first scope and identify what 
issues of controversy were out there and whether there were 
clear legal responses to those. But----
    Mrs. Christensen. Wouldn't it help to clarify for this and 
future Monuments this issue of boundaries and whatever 
interests would or would not be affected and whatever legal 
uncertainties might exist if a Solicitor's opinion was issued?
    Mr. Calvert. It would be helpful to provide guidance from 
the Department on issues where there isn't a clear answer. On 
the fact that the Federal Government is not going to assert 
jurisdiction over private or State lands, we are clear on that. 
But that doesn't get to the issue of why the boundary is where 
it is and whether there is any future effect on those lands.
    Mrs. Christensen. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Radanovich. The Chair recognizes Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Mr. Calvert, by changing the boundaries, does it in any 
way, shape, or form change the size of the Monument?
    Mr. Calvert. It changes the size encompassed inside the 
external boundary. If----
    Mr. Rehberg. But not the Monument.
    Mr. Calvert. If you read the Antiquities Act and if you 
read the management analysis of the BLM, the Monument itself is 
the Federal land inside of the Monument and that would not 
change.
    Mr. Rehberg. Wouldn't you agree perhaps that usually when 
these kinds of things are done in haste, mistakes are made, and 
from your perspective within a new administration, was this 
done in a hasty fashion at the last hour of the Presidential 
administration, or was it done with forethought, with adequate 
notice, public comment, a legal map that the landowners could 
see and knew that their land was going to be included?
    Mr. Calvert. To my knowledge, there were no public 
meetings. There were no maps provided in advance. There was no 
comment taken in developing the boundary. That doesn't mean 
that the boundary wasn't done with a lot of thought-provoking 
and searching analysis. But it was issued at the very end of 
the administration and it was done without public comment.
    Mr. Rehberg. So if you were going to follow the spirit of 
the type of government we have in America, you would have made 
a map available to the landowners to specifically say, your 
land may be included in this Monument. What is your opinion? 
Are you for it or against it?
    Mr. Calvert. I can only speak as a member of Secretary 
Norton's administration, and from our perspective, I am sure 
you have heard it before, she ascribes to the four ``C''s and 
would not have recommended making a Monument without working 
with the local landowners first.
    Mr. Rehberg. When this Committee had the hearing last year, 
Mr. Chairman, I asked the question of the administration, had a 
map been put out yet, because it had not been done at the time 
that it was created and it had not been done at the time of the 
testimony by the administration. I ask you the same question, 
Mr. Calvert. Is there now a map that clearly defines 
legitimately or legally exactly what private lands are included 
along the periphery?
    Mr. Calvert. At the time of the hearing, the last time, 
there was the map that had been put into the Federal Register 
with the proclamation, which was a small map printed on black 
and white paper and not very easy to read. There is now a map 
in the Lewiston Field Office in Montana that provides fairly 
certain boundaries. If you are a property owner, you can go in 
and find out whether you are inside or outside without 
question. It also----
    Mr. Rehberg. Has that map been provided to each of the 
landowners?
    Mr. Calvert. That, I can't answer, but I would be happy to 
find out.
    Mr. Rehberg. Would you, please?
    Mr. Calvert. It is the planning map that is being used in 
the field office.
    Mr. Rehberg. At the time of the hearing a year ago, I asked 
specifically the question, had the administration, the Clinton 
administration, ever communicated with the landowners the 
potentiality of their land being included. The answer was no, 
or we are not sure, we will check. Have you ever been able to 
identify any way, shape, or form that the landowners were told 
which acreage of their private land was going to be drawn 
inside the boundary?
    Mr. Calvert. No. It would be hard to confirm that. I know 
certain landowners were part of the discussion that led up to 
the development of the Monument, but I can't tell you which 
ones. Certainly, not all.
    Mr. Rehberg. Land owners that are currently included in the 
new Monument?
    Mr. Calvert. Yes.
    Mr. Rehberg. I would like----
    Mr. Calvert. To the best of my knowledge.
    Mr. Rehberg. OK. You have been involved in the public lands 
issue for a long time. One of the things I say on the stump 
back in my State is, just remember, there is no such thing as a 
promise in our form of government, that while we state that we 
are going to do something today, people kind of forget that 10 
years from now. Can you look this Committee in the eye and tell 
us that under no way, shape, or form there will ever be any 
change in the management of that BLM land that will directly or 
indirectly affect the private property that are included in the 
in-holdings?
    Mr. Calvert. No. I can only give you certainty that there 
would be no change pushed forward by us.
    Mr. Rehberg. So all the promises----
    Mr. Calvert. A lawsuit could change--judicial review could 
change the status of in-holdings. That is--beyond the four 
years that we have there, I can't provide any certainty.
    Mr. Rehberg. So a different administration with a different 
philosophy could, in fact, because that private property is 
included inside the boundaries, affect the management of the 
Federal properties and indirectly affect the private property 
management?
    Mr. Calvert. They would have to change the current 
interpretation of the Antiquities Act, but yes, I mean, they 
could certainly argue that.
    Mr. Rehberg. And one of the arguments is this is precedent-
setting, that it somehow affects another State or another 
district or another park. Do you see anything in this bill 
that, in fact, affects any other State, any other Monument, any 
other park?
    Mr. Calvert. Not in this bill, no.
    Mr. Rehberg. I think my time is about up. I will save it, 
if we get a chance for----
    Mr. Radanovich. Thank you.
    Mr. Rehberg. Thank you.
    Mr. Radanovich. Ms. Bordallo?
    Ms. Bordallo. Thank you very much, Mr. Chairman. Land 
issues always catch my eye. I come from a very small territory 
named Guam and land is very precious to all of us.
    I have a question on H.R. 1629 to you, Mr. Calvert. I want 
to understand this. So in what specific ways does inclusion of 
private property inside the exterior boundary of the National 
Monument affect their property? Does it impinge upon their 
access to the property or impact their use of their property, 
either positively or negatively? And if so, in what ways?
    And then my second part of this question is, some examples 
that you could share would be most helpful for me to 
understand, and that is the implications of including or 
excluding these properties inside the exterior boundary. And 
maybe you could also enlighten us on the implications either 
way for the BLM's management of the Monument. In other words, 
what are the advantages or disadvantages of including these 
private properties and do these people have any rights?
    Mr. Calvert. Well, they certainly have all of their valid 
existing rights. The proclamation makes that clear. The 
Antiquities Act also applies only to Federal lands, so 
arguably, there is no--in fact, the Department and the BLM have 
stated as such, that there is no Federal jurisdiction over the 
private and State lands by virtue of this Monument 
proclamation.
    Ms. Bordallo. So they can use their properties in any way 
they wish?
    Mr. Calvert. Well, consistent with nuisance laws and things 
like that, yes. They can use them for any use they could have 
used before the Monument. And I guess that answers your first 
question. I am not sure.
    On the second question, you asked for examples of 
implications, and I am not sure exactly how to respond to that. 
The most notable implications for private landowners, or the 
questions that are raised are in places where the boundary 
crosses their property and doesn't simply include Federal land. 
It is common that you have in-holdings that are surrounded by 
Federal land inside of a specific management unit. That occurs 
all the time in parks and even within BLM conservation areas, 
et cetera.
    But it is uncommon to have boundaries of something like a 
Monument, which is supposed to be drawn as narrowly as 
possible, to go across or even around private land and simply 
not--not just by the fact that it is surrounded by Federal 
land, but to actually include it inside of a boundary for no 
other purpose than drawing the boundary around it.
    And that is what--given that the BLM asserts no 
jurisdiction over this land, the instant question that comes to 
mind is what effect does the boundary have? You are inside the 
boundary, but are you a part of the Monument? I think the 
answer to that is clearly no. But you are inside of the 
boundary. And so the question that naturally arises in 
landowners' minds is, why am I inside the boundary and what 
implication does this have for me?
    I can't with a fortune ball be able to identify all of the 
potential implications that could occur in the future. There 
will be a management plan that manages the use of the Federal 
lands inside of the Monument. That management plan is ongoing. 
The scope and process is being completed. They are working--the 
BLM in Montana is working to put together a draft management 
plan that should be completed by next summer and we will go out 
for extensive public comment at that time.
    Issues that could affect people's use of their land will be 
things that have to do with the rights-of-way, that have to do 
with any number of issues that relate to Federal and private 
management anywhere. This is--if you have to have a right-of-
way where it crosses Federal land where it is not in a 
Monument, you have to go through the Title V process to get 
that right-of-way. That is not supposed to change. This 
Monument shouldn't change the Title V right-of-way permitting 
process. That is not to say that 10 years from now, it won't. I 
can't answer that.
    Ms. Bordallo. One other question, if I could, Mr. Chairman, 
and I don't know, maybe the author could answer this better 
than Mr. Calvert, but has the Federal Government ever made any 
move to compensate property owners if they are interested, or 
has there been any request on the part of the private owners to 
compensate them for their property? I don't know, is this a 
good question or not?
    Mr. Rehberg. It is a good question. Mr. Chairman, if the 
gentlelady yields, no, there has been no offer of compensation. 
See, therein lies the issue. When you asked the question, does 
it affect the private property, no. So why have it in the 
boundary? Well, there must be a direct effect, then, or an 
indirect effect or people wouldn't be working so hard not to 
change----
    Ms. Bordallo. To get it included.
    Mr. Rehberg [continuing]. The way it was included. So yes, 
there is an indirect effect, and what the indirect effect is, 
the Federal Government wants to be the purchasers of that land 
in the future, and that puts a cloud on either the title or the 
land itself, because if the Federal Government has its fingers 
on or designs on that property, indirectly they are saying, we 
want to be the purchaser. Now, if the Federal Government really 
wanted that land, would they poke the landowners in the eye as 
they are doing? So when the argument is made, it doesn't affect 
the private property that is inside that boundary, well, 
obviously, it does, because people are working pretty hard to 
keep it in there.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Ms. Bordallo.
    The Chair recognizes Mr. Bishop for any questions.
    Mr. Bishop. Thank you. Mr. Calvert, in the Antiquities Act 
that was used for this particular Monument, historically, that 
Act was used to designate a Monument where some kind of Federal 
resource, either historical or archaeological, was under an 
immediate threat. In the case of this particular Monument, 
could you tell me what created the urgency to create the 
boundaries as they are right now? What was the immediate threat 
to a resource within this particular area?
    Mr. Calvert. I can't answer what created the immediate and 
urgent need to establish it because I was not there when it was 
established. The BLM has put out in its management analysis the 
purposes of the Monument, which probably give us the best guide 
for why the Monument is there. There are certain geological 
natural features there that are arguably worth protecting, or 
from certain uses. But I can't tell you what the imminent or 
urgent need was to do the Monument the way it was done.
    Mr. Bishop. OK. That is sometimes helpful. I appreciate 
that.
    Since I was a little bit late coming in here, let me get a 
couple of things that I think have been heard and I want to 
make sure that they are there. If you do have private lands and 
State lands and public lands within this particular 
designation, that will always present the potential for some 
kind of conflict. Am I correct in making the assumption that 
there will always be a potential legal cloud over this 
particular Monument that could frustrate both the private 
citizens as well as the Federal Government's design unless you 
do something to try and rectify the problem of having private 
lands within this Monument?
    Mr. Calvert. I don't want to say that there is a permanent 
legal cloud on their title because that would be incorrect from 
my understanding, for me to verify that, so to speak. But there 
is an ongoing conflict surrounding the development of the 
management plan for the Monument that directly relates to the 
3,300-plus landowners who have communicated with Congressman 
Rehberg. They support this bill because they do not believe 
that their private lands should have been included in the 
Monument and the Department doesn't feel that there is any 
compelling reason to keep them inside of the boundary.
    Mr. Bishop. So that would simply solve that problem?
    Mr. Calvert. That is my understanding.
    Mr. Bishop. And the Department does support this bill?
    Mr. Calvert. Yes, sir.
    Mr. Bishop. Thank you.
    Mr. Radanovich. Thank you. Mr. Udall?
    Mr. Tom Udall. Thank you, Mr. Calvert, for being with us 
today. Do the interim management guidelines for the National 
Monument threaten private property rights?
    Mr. Calvert. I don't believe they do, no, sir.
    Mr. Tom Udall. Will the final management plan for the 
National Monument threaten private property rights?
    Mr. Calvert. Well, I can't speak to what will be in the 
final management plan until it is issued, but I don't 
anticipate that it will, no, sir.
    Mr. Tom Udall. And are the historic and scientific 
resources of the Upper Missouri Breaks area confined solely to 
Federal lands?
    Mr. Calvert. I am sorry. Could you repeat the question?
    Mr. Tom Udall. Are the historic and scientific resources of 
the Upper Missouri Breaks area confined solely to Federal 
lands?
    Mr. Calvert. I can't answer that. I am not familiar with 
all of the scientific or historical resources that might be 
there.
    Mr. Tom Udall. Isn't it true that the Antiquities Act 
allows the Secretary of Interior to acquire property from 
willing sellers when historic and scientific resources of a 
National Monument are also located on private lands?
    Mr. Calvert. Yes, sir.
    Mr. Tom Udall. I don't have any further questions, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mr. Udall.
    Any other questions? Denny?
    Mr. Rehberg. Yes, Mr. Chairman. Thank you. I just want to 
make a couple of points but ask you the question.
    By including private land on the periphery within the 
boundary, do you believe the intended--the stated intent is to 
eventually have the Federal Government purchase that property?
    Mr. Calvert. I can't say what the intent was, but what the 
proclamation says is that, if private land inside the boundary 
is acquired at any time in the future, it will become a part of 
the Monument.
    Mr. Rehberg. All right. We have already established the 
fact that the Federal Government did not follow normal 
procedures by having hearings, talking to the landowners, 
asking their opinion, so we have already circumvented one 
public process. If that land inside those boundaries comes up 
for sale, if the boundaries were not on the outside of the 
private property, legislation would have to be crafted by the 
Bureau of Land Management asking permission of the Congress to 
purchase the land and an appropriation made.
    Mr. Calvert. Yes, sir.
    Mr. Rehberg. But not under the designation of the Monument, 
because now the line is on the outside and once again it will 
circumvent the public process because the Bureau of Land 
Management will be able to buy the land directly without 
Congressional approval, is that correct?
    Mr. Calvert. Well, if money is made available by the 
appropriators, yes, the land could be acquired and it would 
become a part of the Monument without further action by 
Congress or the President as the proclamation----
    Mr. Rehberg. So not only did we not have public input on 
the creation of the Monument in the first place and the 
addition of the public lands, the boundary, but if the land is 
purchased, we also won't have public input. So we are 
compounding a problem, I would suggest.
    Mr. Calvert. There would not be additional public input. 
There would be Congressional activity because it would require 
approval of the appropriations, but that is it.
    Mr. Rehberg. If I might make a point to Mr. Udall, perhaps 
you weren't here when I was asking questions before, but I just 
would like to say that you used the word ``final'' guidelines. 
There is no such thing as final, and nobody can assure that 
what this administration establishes becomes the management of 
that National Monument for all eternity because that Monument 
is going to be around forever, but the next administration, 
whoever that might be, whether it is the Bush administration or 
someone else, can change those guidelines and the promise 
cannot be made, and that is what these landowners fear, because 
they never had an opportunity to suggest whether they wanted 
their land included or not. There is no such thing as finality 
in this form of government.
    Mr. Tom Udall. Will the gentleman yield?
    Mr. Rehberg. I yield.
    Mr. Tom Udall. I think I was using those terms in terms of 
the legal term of art, that that is what they are titled in 
order to ask him.
    Mr. Rehberg. Yes.
    Mr. Tom Udall. Isn't it true that, if I can go further, I 
would just like to clarify one of the questions you were 
asking, Mr. Rehberg. Your administration, if you had the intent 
to go out and purchase these lands through the appropriations 
process as has been outlined, you, of course, would involve the 
public and do whatever you could to make sure that the public 
was notified, the landowners were notified, and all of that, 
wouldn't you?
    Mr. Calvert. The Department abides by the four ``C''s 
wherever it can and consults with the local population before 
making significant decisions, yes, sir.
    Mr. Rehberg. Reclaiming my time, that makes my point of the 
difference between the last administration and this 
administration. The last administration did not fulfill its 
requirements of public notification and actually involve the 
landowners. This administration is, but can you look me in the 
eye and say the next administration, if it is not yours, is 
going to do the same, and you just stated----
    Mr. Calvert. Of course not.
    Mr. Rehberg. Therein lies the point. Thank you, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mr. Rehberg.
    Two questions for Mr. Calvert regarding the Missouri 
Breaks. Under the Monument designation for private property, if 
they are in-holders, are rights-of-way affected to the private 
property owner under that Monument designation?
    Mr. Calvert. To the extent that there are existing rights-
of-way permits, there is no effect. And, in fact, although 
there isn't specific guidance on it in the management plan 
because it isn't completed yet, in the interim guidelines that 
Congressman Udall referenced, there is a specific mention of 
Title V permitting, which is how the BLM typically processes 
right-of-way applications and says that those decisions are not 
a part of the management of the Monument itself, that those 
decisions occur outside of that. And so processing, in theory, 
processing of rights-of-way permits should not be affected.
    The actual access won't be affected. The location of it 
might. In order to protect certain geological features, the BLM 
might require that an access road go around or go this way or 
connect up to a different road somewhere else. The access 
itself shouldn't be affected, but the location of the road 
might be.
    Mr. Radanovich. OK. Thank you very much.
    Any other questions from members?
    [No response.]
    Mr. Radanovich. If not, Mr. Calvert, thank you for being 
here and speaking on these three bills.
    Mr. Calvert. Thank you, sir.
    Mr. Radanovich. Next, I will call up our third panel, which 
includes Ms. Jennifer Roeser, who is the owner of McGee Creek 
Pack Station from Mammoth Lakes, California; Joanne Martin, 
Ph.D., President and CEO of The Great Blacks in Wax Museum in 
Baltimore, Maryland; Mr. Matt Knox, Chairman of the Missouri 
River Stewards from Winifred, Montana; and Mr. Hugo Tureck, who 
is the Vice Chairman of the Friends of the Missouri Breaks 
Monument, Coffee Creek, Montana.
    Ladies and gentlemen, welcome to the Subcommittee. We will 
hear testimony from each of you. You have got five minutes. You 
can sum up your written statements, because as you know, 
written statements are included in the record anyway. Each will 
be speaking for five minutes. If you will mind the clock, that 
would be very helpful, and then we will go for questions from 
the panel afterwards.
    Ms. Roeser, we will start with you, if you will begin your 
testimony, and welcome to the Subcommittee.

STATEMENT OF JENNIFER ROESER, OWNER, McGEE CREEK PACK STATION, 
                   MAMMOTH LAKES, CALIFORNIA

    Ms. Roeser. Thank you, Chairman Radanovich and members of 
the Subcommittee. I want to thank you for the opportunity to 
talk with you today about the critical need and the importance 
of preserving the historic use and access of pack and saddle 
stock animals--horses and mules is what we are talking about--
on our Federal lands. I am pleased to be with you and provide 
this testimony and to answer any questions you have.
    As a member and a director of the High Sierra Packers 
Association, a second-generation owner of McGee Creek Pack 
Station on the Inyo National Forest in California, a member of 
the Back Country Horsemen of California, a nationally ranked 
endurance trail rider, the wife of a Forest Service packer who 
is also a second-generation pack station operator, and a 
lifelong stock user of the mountains in California, I come 
before you with testimony from my personal experience, my 
professional background and business experience, and more than 
anything, a heartfelt belief in the value and contribution that 
maintaining this historic use can have for this society and for 
future generations to come.
    I hope to convey to you the long and frustrating struggle 
that the stock use community has been going through for over 20 
years to hold on to the trails and areas that have been 
historically used by stock. This is a very important turning 
point with the proposed Right to Ride Livestock Act, to protect 
this legacy for the future. I hope to offer a brief history and 
perspective of why the use of pack and saddle stock on Federal 
lands is important to the public, to identify problems that 
stock users encounter as they use Federal lands, and to 
identify our perception as to the cause of the problem, and to 
emphasize the need for urgency in passing this legislation.
    For those who use pack and saddle stock, leading the pack 
train is a way of reliving the pioneer era. It provides a link 
with the past and is something that cannot be done without a 
trail system, trail head access, and undeveloped areas for 
camping. Having a sense of discovery and exploration is what 
many users are seeking. They want and need to have a sense of 
getting away from it all.
    We are seeing an increasing loss of access through trail 
restrictions, trail closures, and use restrictions. Stock users 
are being prohibited from using areas they have historically 
traveled through and they are being concentrated into ever-
smaller areas. In our business, the cumulative impact of the 
restrictions placed on where we can travel and the trails we 
can use has resulted in significant loss of opportunities for 
families, persons with disabilities, school groups, church 
groups, and others who use stock. In designated wilderness 
areas, there is a management environment less tolerant of these 
traditional forms of use. Restrictions are being advocated by a 
minority group of users and agency personnel who personally do 
not want to see stock use in the mountains.
    Time is of the essence in passing this legislation. 
Currently, there are numerous closures taking place that are 
affecting stock users' access to trails right now. Historic 
pack stations are being closed without any public notice. 
Agency plans have increasingly more stock use restrictions 
without any science or valid rationale to support the actions, 
and with the number of National Forests, National Park, and 
area management plan revisions due in the near future, time is 
critical to prevent the loss of trails and access for stock.
    I just want to give you a quick, very quick history. Some 
of the conservation and preservation leaders of the past--it is 
sort of relevant, because this is the bicentennial of the Lewis 
and Clark expedition and that was sort of the beginning of 
where this came from. But Teddy Roosevelt, Gifford Pinchot, 
Aldo Leopold, Steven Mather, and Horace Albright were great 
leaders and had a vision for what was needed to protect 
America's lands.
    Pack and saddle stock provided the principal means of 
transportation in the exploration and development of the 
mountainous regions of the United States. Explorers, such as 
Lewis and Clark, Jedadiah Smith, John Fremont, Joseph Walker, 
dependent on horses and mules to take them over the rough 
terrain encountered on their travels. The U.S. Calvary relied 
on horses and mules for transportation on their patrols of 
public lands prior to the formation of National Park and Forest 
Systems.
    The richness of our Federal land system is due in part to 
our explorers' and conservation leaders' ability to conduct 
their duties using horses and mules. The extensive trail system 
that exists today in the Sierra Nevada Mountain range of 
California was built to facilitate the movement of pack animals 
through the high country.
    Recreational use of the back country by horsemen began in 
the early 1800s as local residents traveled to the high country 
to escape the heat of California valleys. As road systems 
developed on each side of the Sierra in the early 1920s, the 
commercial packing business began in earnest, and by the mid-
1930s, the packing business was in full swing, with many 
outfits providing services to those anxious to visit the High 
Sierra. Commercial packers played an important role in the 
emergencies and for suppression of wildfires in back country 
and wilderness areas.
    Our link to the past is important as it provides us with an 
understanding of the processes that shaped our American history 
and culture. Many users of pack and saddle stock seek to find 
and experience the historic activities of an earlier time. To 
be able to view and live as early explorers did provides many 
users the opportunity to connect with history outside of a 
museum setting. Our link to the past is our ability to carry 
out this tradition and culture of the early day pioneer and to 
work to ensure that these traditional skills are not lost to 
future generations.
    As we begin our journey into the 21st century, free and 
unrestricted wilderness travel is fast becoming an anachronism. 
Incremental restrictions and regulations threaten the very 
essence of the wilderness experience and the ability to 
continue historic patterns and types of travel in remote, 
unroaded back country is eroding year by year.
    Some of the problems that I just want to quickly outline 
are loss of access, first of all. One of the most important 
issues facing those who use pack and saddle stock on public 
lands is the loss of access. This issue is identified by a 
report to this Committee by Dr. John Hughes, Chairman of the 
University of California at Davis. He mentioned closures and 
exclusions at the time, alarming condition of back country and 
wilderness trails, overregulation, and the need for legislative 
relief.
    Loss of services to the public are being experienced. The 
general public who do not have their own stock still want to 
have the experience of exploration, discovery, and enjoyment, 
and getting away from it all. We sense an antagonism from 
agency personnel merely because we are commercial businesses 
and being in business means we need to make a profit.
    The end result is the public who wishes to use our services 
is denied even further because of the additional constraints 
that are placed on commercial providers. We provide America's 
last chance for families to vacation together without the 
gadgets that are so much a part of our daily lives. No video 
games, no phones, no TVs means most families can interact with 
each other on a one-to-one basis. That is pretty important.
    One of our perceived causes of the problem is that our 
history of pack and saddle stock is being eroded by the 
personal agendas of extreme environmental groups and aligned 
agency personnel. Additionally, we are losing the 
infrastructure of our trail system due to lack of annual 
maintenance and a downgrading of the trail system, which is due 
in part to lack of maintenance.
    It appears the agencies are interpreting the Wilderness Act 
with a conspicuous bias toward extreme preservationism at the 
expense of the equally important responsibility of providing 
for the use and enjoyment of the American people. It is our 
belief that this is not what Congress intended when they passed 
the Wilderness Act of 1964.
    The efforts of land managers to place higher emphasis on 
restoring pristine conditions are the result of misguided 
preservation and purity biases. In fact, the House report on 
the Endangered American Wilderness bill specifically directed 
the Forest Service to abandon its purity approach. Congress 
clearly expected that wilderness would accommodate a wide 
spectrum of Americans who desired a wilderness-type recreation.
    Mr. Radanovich. Ms. Roeser?
    Ms. Roeser. Yes?
    Mr. Radanovich. If I can, I forgot to mention the five-
minute clock. Would you like to sum up now?
    Ms. Roeser. I will do that, yes. I am sorry. I saw three 
minutes over there.
    I will just sum up by saying that the timing for this 
legislation is appropriate and that we have tried, not only as 
private stock users, but as commercial entities, every possible 
means to resolve a number of the issues prior to coming to 
Congress to ask for legislation. We pride ourselves on our 
stewardship of Federal lands that we have operated on 
collectively in my family for 80 years. We participated fully 
in planning processes. We provided input, attended literally 
hundreds of meetings, engaged in legal options, and we now seek 
a solution that will provide stability and assurance for the 
traditional and historic use of pack and saddle stock on our 
Federal lands.
    I thank you for this opportunity.
    [The prepared statement of Ms. Roeser follows:]

    Statement of Jennifer A. Roeser, Director, High Sierra Packers' 
             Association, Eastern Sierra Unit, on H.R. 2966

INTRODUCTION
    Chairman Radanovich and members of the Subcommittee, I want to 
thank you for the opportunity to talk with you today about the critical 
need and the importance of preserving the historic use and access of 
pack and saddle stock animals on our federal lands. I am pleased to be 
with you to provide this testimony and to answer any questions you may 
have.
    As a member and Director of the High Sierra Packers Association, a 
second generation owner of McGee Creek Pack Station (Inyo National 
Forest), a member of the Backcountry Horsemen of California, a 
nationally ranked endurance trail rider, the wife of a Forest Service 
packer (also a second generation pack station operator), and a lifelong 
stock user of the mountains in California--I come before you with my 
testimony from my personal experience, my professional and business 
experience, and more than anything--a heart felt belief in the value 
and contribution that maintaining this historic use can have for 
today's society and for generations to come.
    I hope to convey to you the long and frustrating struggle that the 
stock use community has been going through for over 20 years to hold on 
to the trails and areas that have historically been used by stock. This 
is a very important turning point, with the proposed ``Right-to-Ride 
Livestock on Federal Lands Act of 2003'' to protect this legacy for the 
future.
    I hope to offer a brief history and perspective of why the use of 
pack and saddle stock on federal lands is important to the public; to 
identify problems that stock users encounter as they use federal lands; 
to identify our perception as to the cause of the problem; and to 
emphasize the need for urgency in passing this legislation.
    1. For those who use pack and saddle stock, leading the pack train 
is a way of reliving the pioneer era. It provides a link with the past, 
and is something that cannot be done without a trail system, trailhead 
access, and undeveloped areas for camping. Having a sense of discovery 
and exploration is what many users are seeking. They want--and need--to 
have a sense of getting away from it all.
    2. We are seeing an increasing loss of access through trail 
restrictions, trail closures, and use restrictions. Stock users are 
being prohibited from using areas they have historically traveled 
through and they are being concentrated into smaller areas.
       In our business, the cumulative impact of the restrictions 
placed on where we can travel and the trails we can use have resulted 
in a significant loss of opportunities for families, persons with 
disabilities, school groups, church groups and others who use stock.
    3. In designated wilderness areas, there is a management 
environment less tolerant of the traditional forms of use. Restrictions 
are being advocated by a minority group of users--and agency 
personnel--who personally do not want to see any stock use in the 
mountains.
    4. Time is of the essence in passing this legislation. Currently 
there are numerous closures taking place that are affecting stock 
users' access to trails. Historic pack stations are being closed 
without any public notice. Agency plans have increasingly more stock 
use restrictions without any science or valid rationale to support the 
actions. And with the number of National Forest, National Park and area 
management plan revisions due in the near future, time is critical to 
prevent the loss of trails and access for pack and saddle stock use.

1. HISTORY
    Let us reflect on some of our country's conservation and 
preservation leaders whose wisdom and foresight helped to provide us 
with an incredible network of public lands.
    <bullet> Chief Joseph of the Nez Perce
    <bullet> Teddy Roosevelt
    <bullet> Gifford Pinchot
    <bullet> Aldo Leopold
    <bullet> Stephen T. Mather
    <bullet> Horace M. Albright
    These great leaders had a vision for what was needed to protect 
America's lands. Pack and saddle stock provided the principle means of 
transportation in the exploration and development of the mountainous 
regions of the United States. Early explorers such as Lewis and Clark, 
Jedediah Smith, John C. Fremont and Joseph Redeford Walker depended on 
horses and mules to take them over the rough terrain encountered on 
their travels. The U.S. Army Cavalry relied on horses and mules for 
transportation on their patrols of public lands prior to the formation 
of the National Park and Forest systems. The richness of our federal 
land system is due in part to our explorers' and conservation leaders' 
ability to conduct their duties using horses and mules.
    The extensive trail system that exists today in the Sierra Nevada 
mountain range in California was built to facilitate the movement of 
pack animals through the high country. Among the first trails built 
across the Sierra were the Hockett and Jordan Trails which were 
completed in 1864. The first Mt. Whitney Trail was completed in 1881. 
The famous John Muir Trail traversing over two hundred miles along the 
backbone of the Sierra was started in 1908.
    Recreational use of the backcountry by horsemen began in the early 
1800's as local residents traveled to the high country to escape the 
heat of the California valleys. Historically, the Sierra Club sponsored 
trips to Yosemite as early as 1902, with trips the following year to 
Sequoia Park and Mt. Whitney. These outings and subsequent trips relied 
heavily on pack stock to transport their extensive baggage and camp 
equipment.
    As the road systems developed on each side of the Sierra in the 
early 1920's, the commercial packing business began in earnest, and by 
the mid-thirties the packing business was in full swing with many 
outfits providing services to those anxious to visit the High Sierra. 
Commercial packers also played an important role in emergencies and in 
the suppression of wildfires in backcountry and wilderness areas. 
Please see the attached ``Previous and Present Day Packing Services in 
the Sierra Nevada'' for a brief history of packing in the central 
Sierra region. The decline in the number of commercial operators is due 
in part to the excessive regulations, and agency decisions to close 
facilities.
    Our link to the past is important as it provides us with an 
understanding of the processes that shaped our American history and 
culture. Many users of pack and saddle stock seek to find and 
experience the historic activities of an earlier time. To be able to 
view and live as our early explorers did provides many users the 
opportunity to connect with history outside of a museum setting. Our 
link to the past is our ability to carry out this tradition and culture 
of the early day pioneer and to work to insure that these traditional 
skills are not lost to future generations. As we begin our journey into 
the twenty first century, free and unrestricted wilderness travel is 
fast becoming an anachronism. Incremental restrictions and regulations 
threaten the very essence of a wilderness experience, and the ability 
to continue historic patterns and types of travel in remote, unroaded 
backcountry is eroding year by year.
    Perhaps Aldo Leopold, a wilderness advocate and U.S. Forest Service 
Ranger in New Mexico in the early 1900's best expressed the concept of 
packing history as being an important value of wilderness when he 
wrote,
        ``The time is almost upon us when a pack train must wind its 
        way up a graveled highway and turn its bell mare into the 
        pasture of a summer hotel. When that day comes, the diamond 
        hitch will be merely a rope; Kit Carson and Jim Bridger will be 
        only names in a history lesson...If, once in a while man has a 
        chance to throw the diamond hitch and travel back in time, he 
        is just that much more civilized than he would have been 
        without that opportunity.''

2. PROBLEMS
    Loss of Access. One of the most important issues facing those who 
use pack and saddle stock on public lands is the loss of access. This 
issue has been identified as one of the most critical aspects for 
nearly 20 years. Dr. John Hughes, Chairman at the University of 
California at Davis School of Veterinary Medicine, provided a report to 
the Presidential Commission on Americans Outdoors in 1986 and reported 
the following:
          ``Closures and Exclusions. Many areas where stock use 
        occurred historically have been closed to overnight use by pack 
        and saddle stock, and some have been placed `off limits' to 
        entry to horsemen. Often these closures were made on the basis 
        of local bias without the benefit of public input or studies by 
        qualified specialists. Excessive use by other use groups has 
        led to the closing of trails that were built by and for the use 
        of pack and saddle animals. The Mt. Whitney trail was closed to 
        stock use to mitigate the possible conflict between pack stock 
        and hikers.
          Alarming Condition of Backcountry and Wilderness Trails. 
        Trail maintenance has declined to the point that many of the 
        trails, especially on the high mountain passes, may be lost 
        completely for the use by pack and saddle stock. It has been 
        many years since an adequate trail maintenance program has been 
        in place anywhere in the Sierra Nevada. A trail that becomes 
        too dangerous for saddle and pack animals closes the areas 
        served by the route to stock use as effectively as if each area 
        were closed on an individual basis.
          Over Regulation. Most of the national public lands 
        administrators manage their forest and parks with an over 
        abundance of rules and regulations. Thirty years ago stock use 
        on public lands was near an all-time high. Now stock use is 
        down by as much as 85% and the rules and regulations continue 
        to increase with each summer season. Horsemen visiting those 
        areas still open to their use are often faced with complex and 
        confusing rules that are often inconsistent with those found in 
        other regions. It is easy to demonstrate that many of the 
        regulations imposed upon stock users were made due to personal 
        bias of administrators rather than any proven need to protect 
        the resources of a National Park or Forest.
          Legislative Relief. Legislation should be enacted mandating 
        the administrators of national public lands to recognize the 
        significance of historic stock use and the rights of horsemen 
        to use pack and saddle animals where such use has been historic 
        and significant. Such a mandate would guide all future managers 
        of the national public lands as they formulate future 
        management plans, and would in effect create a consistent 
        administrative policy in regards to pack and saddle stock use 
        from one National Forest or Park to another. Such a guide would 
        negate any personal bias on the part of administrators and 
        would serve to help make necessary regulations more uniform and 
        less confusing.''
    It is disturbing that the very same issues that Dr. Hughes reported 
on in 1986 are still very much the same issues we are facing today. His 
call for legislative relief showed the foresight that is now so 
imperative to act upon.
    Later, in 1999, Horse and Rider Magazine polled its readers 
regarding their ``top problem or concern'' and loss of riding trails 
was the number one concern, ranked first by 42% of the respondents.
    On May 23, 2001, Alan T. Hill testified on behalf of the American 
Horse Council to the House Resources Committee regarding several key 
issues related to the loss of access. Alan's testimony stated:
          ``We have become alarmed as we have witnessed during the last 
        decade the continued decline in the condition and extent of our 
        trail systems and a pervasive trend throughout the country of 
        increasing restrictions directed specifically at pack and 
        saddle stock use on our federal lands including wilderness 
        areas, National Forests, National Parks, National Monuments, 
        backcountry and front country''
          National policy needs to reaffirm that recreational and 
        historical uses--such as equestrian uses--be recognized as an 
        appropriate and acceptable use on federal lands such as 
        wilderness areas, National Forests, Parks and Monuments, and 
        that management of our public lands is for the use and 
        enjoyment of the American people. It has been our experience 
        that special designations, i.e., Monuments, wilderness, road-
        less areas, seldom if ever expands recreational opportunities 
        for horsemen. In practice these designations often result in a 
        loss of access and recreational opportunities.
          Restrictions and prohibitions imposed on recreational equine 
        use and incidental grazing should be the exception rather than 
        the rule and be determined by site-specific analysis based on 
        use, land characteristics and science. It should not be 
        subjective or based on the social preferences of other users.
          The ability of the Forest Service or any other Federal land 
        agency to unilaterally close a trail or trail head with no 
        notice or public process must be stopped. De facto restrictions 
        on access or the limitation through onerous regulations must be 
        eliminated.''
    Loss of Services to the Public. The general public who do not have 
their own stock still want to have the experience of the exploration, 
discovery and enjoyment of ``getting away from it all.'' Yet, as 
providers of service to the public, commercial pack stock operators are 
restricted beyond belief! We sense an antagonism from agency personnel 
merely because we are commercial businesses. And being in business 
means we need to make a profit. The end result is the public who wishes 
to use our services is denied even further because of the additional 
constraints that are placed on commercial providers. We provide 
America's last chance for families to vacation together without the 
gadgets that are so much a part of our daily lives. No video games, no 
phones, and no television means families and groups interact with each 
other on a one-to-one basis. Spending quality time together is a very 
important aspect of the backcountry experience our clients seek. We 
hope to continue to provide these opportunities for future generations.
    The issues of access, restrictions and closures drive home the 
compelling need for protection of the historic uses of pack and saddle 
stock on our federal lands.

3. PERCEIVED CAUSE OF THE PROBLEM
    Our history of using pack and saddle stock is being eroded away by 
the personal agendas of extreme environmental groups and aligned agency 
personnel. Additionally, we are losing the infrastructure of our trail 
system due to a lack of annual maintenance, and a downgrading of the 
trail system, which is also due in part to a lack of maintenance.
    There has been a disturbing trend in agency management plans to 
reduce, restrict and eliminate stock use facilities and services. The 
list includes pack station closures, trail closures, camping 
restrictions, grazing restrictions and closures, cross-country travel 
restrictions and closures, group size restrictions, and higher fees to 
stock users for wilderness permits under the Recreation Fee 
Demonstration Program.
    An overview of wilderness management plans shows a distinct and 
pervasive trend of restrictions aimed specifically at pack and saddle 
stock. These actions deprive stock users of the type and range of 
recreational opportunities intended in the Wilderness Act. For example:
    <bullet> In the John Muir and Ansel Adams Wilderness Areas in 
California, encompassing more than 800,000 acres, we cannot take our 
guests more than 1/4 mile from a ``system'' trail. This has virtually 
eliminated approximately 70% of the area that our guests can no longer 
access by pack and saddle stock. Historically, visitors traveled to the 
famous lakes and streams throughout the wildernesses by way of game 
trails, fishermen trails, and routes marked only by way of rock 
markers. Now, that use is considered illegal. We now have to 
concentrate our guests into much smaller areas, and we have to 
continually re-use the same areas, thus increasing the chances for 
damage to the sites.
    <bullet> In the Selway-Bitterroot Wilderness in Idaho, the trail 
system has decreased substantially over the last 50 years. Today, more 
than 98% of the Wilderness is unavailable to stock use because of an 
absence of trails. With the loss of trails, this results in use being 
confined to less than 1% of the wilderness.
    <bullet> A recently approved plan for the Sawtooth Wilderness 
requires stock users to camp in the most heavily impacted 18% of the 
area and makes 82% or the wilderness unavailable to stock users, even 
if they use state of the art ``leave no trace'' methods. Managers 
acknowledged that stock use has not increased, and may have actually 
decreased since the area was designated as wilderness. Restrictions 
were imposed simply to ``prevent'' impact in the pristine portions and 
provide ``stock free'' opportunities for those who do not wish to 
encounter stock.
    It appears the agencies are interpreting the Wilderness Act with a 
conspicuous bias toward extreme preservationism or wilderness purity at 
the expense of the equally important responsibility of providing for 
the use and enjoyment of the American people. It is our belief this is 
not what Congress intended when they passed the Wilderness Act of 1964. 
The Wilderness Act specifically states that wilderness will be 
``devoted to the public purposes of recreational, scenic, scientific, 
educational, conservation, and historical use.'' (Sec. 4b, P.L. 88-577) 
This intent was affirmed in the 1998 court case of Wilderness Watch v. 
Dale Robertson, Civ. No. 92-740, August 31, 1998. In this decision the 
District Court for the District of Columbia concluded that the statute 
directs the Forest Service to administer the wilderness with an eye not 
only toward strict conservation, but also to ``ensure the use and 
enjoyment of the American people.''
    The efforts of land managers to place a higher emphasis on 
restoring pristine conditions are the result of a misguided 
preservation/purity bias. In fact, the House Report on the Endangered 
American Wilderness Bill (Report 95-540, July 27, 1977) specifically 
directed the Forest Service to abandon its purity approach. Congress 
clearly expected that wilderness would accommodate a wide spectrum of 
Americans who desired wilderness-type recreation experiences of a 
nature that were established at the time the law was passed. The intent 
of Congress (emphasized throughout the Congressional Record) was to 
preserve existing conditions while providing for existing and future 
uses. However, at the field level--managers are still directing 
wilderness plans to the pristine end of the spectrum, and are 
instituting unrealistic and illogical constraints, particularly for 
commercial pack and saddle stock providers. It is our belief that our 
customers are being unjustly denied fair access to significant portions 
of the wilderness due to the personal biases of agency land managers. 
The agencies are also bowing to the pressure and threats of litigation 
from extreme anti-stock user groups.
    Many of the commercial operators were in business well before the 
Wilderness Act became law. In fact my husband's family, and mine, 
worked diligently to lobby support for the creation of the original 
John Muir Wilderness. Our families have always had a strong 
conservation ethic, one which I am proud to also share today. It is in 
our best interest to care for the land as best we can to continue to 
provide the quality of experience our guests are seeking.
    Other management plans that are affecting stock use include:
    <bullet> The Southern Region Forest Plan Revisions for the 
National Forests in 11 southern states is proposing a standard that 
would block the use of many miles of historic foot travel trails that 
are currently open to riding and pack stock. Literally thousands of 
riders who access and enjoy Southern National Forest trails would find 
themselves trailering miles and miles just to reach approved trails and 
trailheads.
    <bullet> One alternative in a Preliminary Draft Management Plan 
for Sequoia-Kings Canyon National Parks proposed ``No Stock'' in the 
Parks entirely. Even though pack and saddle stock have a well 
documented history in these Parks dating back more than 100 years, Park 
planners indicated they had to include this alternative because another 
user group had requested them to do so.
    The planning documents do not contain substantive qualitative 
monitoring data, and the agencies have been unable to provide this when 
requested. These actions appear to be driven by the biases, preferences 
and values of the agency personnel.
    The agencies are also using the trail system as a tool to achieve 
social and recreation objectives, rather than as a transportation 
system. Year after year, trails are disappearing from inventories, and 
are being taken off the main system. The maintenance backlog is not 
being eliminated, and it does not appear this loss of mileage is being 
reported to Congress. With a loss of system trails, pack and saddle 
stock use is curtailed even more. We are being confined into main 
travel corridors, which only increases the odds for user conflict, 
resource impact, and future restrictions.
    We are seeing trails with a history of pack and saddle stock use 
dating back many years before wilderness designation, now being 
reserved for backpack use. This is being accomplished either through 
direct restrictions or by reducing the maintenance standards. Either 
way, it is an inappropriate means of eliminating stock use where it has 
historically existed. .

4. URGENT NEED FOR LEGISLATION
    Congressman Radanovich and Honored Members of this Subcommittee, we 
have tried every possible means to resolve every single one of these 
issues prior to coming to Congress to ask for legislation. My husband 
and I pride ourselves on our stewardship of the federal lands on which 
we have operated on for collectively more than 80 years. We have 
participated fully in planning processes; we have provided input; 
attended literally hundreds of meetings; engaged in legal options; and 
we now seek a solution that will provide stability and assurance for 
the traditional and historic use of pack and saddle stock on our 
federal lands. Every day that goes by without this legislation means 
these historic uses are endangered and vulnerable to changes. On behalf 
of the High Sierra Packers' Association, I thank you for this 
opportunity and look forward to providing any assistance or additional 
information you may need.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you very much for being here. I 
appreciate that.
    Next is Dr. Joanne Martin, who is the President and CEO of 
The Great Blacks in Wax Museum in Baltimore, Maryland. Dr. 
Martin, welcome to the Subcommittee and you may begin your 
testimony. Again, the lights there, basically the rule is that 
you treat them just like a traffic light. Green is go, yellow 
means speed up, and red means stop.
    [Laughter.]
    Mr. Radanovich. Welcome, and please begin your testimony, 
Dr. Martin.

 STATEMENT OF JOANNE M. MARTIN, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, THE GREAT BLACKS IN WAX MUSEUM, BALTIMORE, MARYLAND

    Dr. Martin. Thank you. Mr. Chairman and members of the 
Subcommittee, I would like to thank you for the privilege of 
speaking before you on H.R. 2424, The Great Black Americans 
Commemoration Act, which passed the Senate as S. 1233. It was 
introduced by Congressman Elijah Cummings and Senator Barbara 
Mikulski.
    I would like to spend the moments that I have remaining 
talking to you about the ``why'' of The Great Blacks in Wax 
Museum and the ``why'' of this legislation.
    My late husband, Dr. Elmer Martin, and I founded The Great 
Blacks in Wax Museum in 1983, so July 9, 2003, represents or 
marks our 20th anniversary. We started as a traveling exhibit. 
We bought four wax figures with some money that we were saving 
to make a down payment on a house. We took these wax figures 
around to schools, churches, malls, libraries, and then at the 
end of the exhibit, we would throw them into the hatchback of 
my car and take them home to our two-bedroom apartment. And if 
you would come in at any given time, you would have found Mary 
McCloud Bethune's head on the dresser and Frederick Douglass' 
torso in a corner.
    One of the most significant ``why''s of The Great Blacks in 
Wax Museum had to do with my husband organizing a Little League 
baseball team. He had ID pictures taken of the kids, took them 
to a park to practice, and he saw a 6-year-old coming toward 
him distraught, crying, angry, demanding that my husband make 
the photographer take the picture over. My husband looked at 
the picture and declared, ``Son, the picture looks just like 
you. Why should he take it over?'' And the kid said, ``Because 
it made it took dark. I don't want to be this black.''
    And he was talking to someone from a product of the 1960s, 
the black consciousness movement of the 1960s and 1970s, a 
generation that had declared that we were black and beautiful 
and black and proud, and we are going to be black and beautiful 
and black and proud forever. We already knew as college 
teachers, my husband and I, that we were dealing with a group 
of college students just moments away from that time who 
thought that career-wise, it was possible to be too black, that 
learning black history and culture would not get you a job or 
the American dream. And then to find that we were dealing with 
a 6-year-old, a generation from those college students, who 
thought that physically it was possible to be too black, that 
was very disconcerting for us.
    So we started The Great Blacks in Wax Museum in a 
storefront in downtown Baltimore. We had the support of Senator 
Clarence Blount, who introduced a bill in the Maryland General 
Assembly. We went to the City of Baltimore for matching funds, 
and the only request that we made of the city was that they 
find the building for us in a low-income fragile community, 
because my husband and I were so convinced that we were going 
to create such a compelling museum that people would have to 
come, and in the process, we could help to bring a community 
back to life based on the philosophy that community development 
and cultural development go hand in hand.
    A ``why'' for me of a wax museum is that when you are 
dealing with a history that is often denied and neglected, that 
it is often a history without faces. What the wax medium and 
what The Great Blacks in Wax has done is to put a face on that 
history. And so we have an ebony Marcus Garby and a caramel-
colored Colin Powell and a sepia Bill Pickett, and hopefully a 
generation of black children who will never feel the need, 
because they see so much of themselves in all that those 
figures represent, to say, I don't want to be that black.
    And finally, the ``why'' for The Great Blacks in Wax Museum 
is around my husband's belief that if we fail to make those 
important connections between the past and the present, none of 
what we do makes any difference.
    A case in point, a group of young African American males 
came into the Museum one day. They were there under duress. 
They were told by their counselor that they had to come in 
order to get to ESPN Zone, which is where they wanted to go. 
They had to come to The Great Blacks in Wax Museum. I resisted 
the temptation to just let them through and get out of there, 
which is what they wanted, and I knew that if I hung in there 
long enough, I would be able to chip through that resistance.
    And when I finally saw that I was, then I took the 
opportunity to make those connections that my husband talked 
about and I said to them, you are in the world today with the 
blood of an ancestor flowing through your body right now who 
was put on a slave ship but who did something unbelievable. 
They lived through that experience. And, therefore, flowing 
through your body right now is the blood of an ancestor who 
gave you God's most precious gift, and that is life.
    And all they might ever ask of you if they could is that 
you live that life as if you appreciated how precious life can 
be. To understand that your ancestors died by the millions, 
they would probably find it crazy the way we kill one another 
today. But your ancestors found education worth dying for. They 
want you to be able to live for it.
    But your ancestors would know a slave ship if they saw one, 
but might be confused today by what we call the prison, the 
jail, the penitentiary because the similarities are 
frightening. In both cases, we are talking about people being 
taken away in chains. In both cases, we are talking about 
people being given a number and having their identity taken 
away. In both cases, we are talking about people being branded, 
physically branded with a hot branding iron as a slave, legally 
branded a criminal. In both cases, we are talking about people 
being made property, of the slave master, of the State. And in 
both cases, we are talking about people being confined.
    Your ancestors would know a slave trader if they saw one, 
so they would know the one who sold them into an evil called 
slavery, but they might warn you to be on guard for the ones 
who through drugs sell us into a slavery just as evil. They 
might want you to know that there is still some work for you to 
do because the shark of hatred and bigotry and racism still 
lurks in the waters, and they might need you to know that even 
something that seems so minor as being able to go into a Burger 
King to have it your own way did not come without sacrifice. 
Some of your ancestors had to die for that right.
    And in the final analysis, they might ask only of you that 
you try to understand what your African ancestors meant when 
they said, ``I am because we are, and because we are, I am.'' 
That is the ``why'' of The Great Blacks in Wax Museum. That is 
the ``why'' of this legislation. We ask you to give us the 
opportunity to continue to work for community and show that 
community development and cultural development can go hand in 
hand, and should, and to continue to tell our stories and tell 
them well. Thank you.
    Mr. Radanovich. Thank you, Dr. Martin, for your testimony. 
I notice we have a couple of inconspicuous or very quiet guests 
in the room today. Mrs. Christianson's guest was maybe Harriet 
Tubman. Can you identify them for us?
    Dr. Martin. We have Dr. Benjamin Hooks, who, of course, was 
in the Nixon Administration, a member of the FCC, and Mary 
Eliza Mahoney. She was the first professional black nurse in 
America.
    Mr. Radanovich. Very good. Thank you for your testimony, 
Dr. Martin.
    Dr. Martin. Thank you.
    [The prepared statement of Dr. Martin follows:]

 Statement of Joanne M. Martin, Ph.D., Co-Founder, President and Chief 
Executive Officer, The Great Blacks in Wax Museum, Baltimore, Maryland, 
                          on H.R. 2424/S. 1233

    Chairman Radanovich, Ranking Member Christensen, and Members of the 
Subcommittee, I am Dr. Joanne Martin, co-founder with my late husband, 
Dr. Elmer Martin, of The Great Blacks in Wax Museum in Baltimore, 
Maryland. It is my honor and privilege to address you today regarding 
the proposed National Great Black Americans Commemoration Act of 2003, 
H.R. 2424/S. 1233.
    As you know, this legislation proposed by Congressman Elijah 
Cummings and Senator Barbara Mikulski of Maryland, with broad 
bipartisan support, authorizes federal assistance in the expansion of 
our museum facility to establish the National Great Blacks in Wax 
Museum. This national museum initiative to help tell the story of great 
Black Americans began more than 20 years ago. Let me give you some 
background on the Museum's origins.

Brief History of The Great Blacks in Wax Museum
    The Great Blacks In Wax Museum, America's first wax museum of 
African American history, was founded in 1983 by my late husband, Dr. 
Elmer Martin, and myself. However, our story really began in 1980 when, 
with money we were saving for a down payment on a house, we purchased 
four wax figures. We carried these to schools, churches, shopping 
malls, and festivals throughout the region, with the goal of testing 
public reaction to the idea of a black history wax museum. So positive 
was the public's response that in 1983, with personal loans, we opened 
the Museum in a small storefront in downtown Baltimore. The success of 
the Museum, especially among students on field trips, made it 
imperative that my husband and I find larger space. In 1985, we closed 
the Museum and organized an aggressive fundraising effort to secure new 
and expanded space and to purchase more wax figures. These efforts 
allowed us to purchase an abandoned fire station on East North Avenue. 
After extensive renovations, we re-opened the Museum in October 1988.
    When the Museum moved to its East Baltimore location, away from the 
lucrative Inner Harbor tourist market and very much off the beaten 
track, many told us that few people would venture into a deteriorating 
community to see a wax museum. Yet, in 1989, the first full year of 
operation in its new location, 44,000 visitors ventured into the 
neighborhood to see the Museum. The museum's visitorship increased 
steadily in subsequent years. In 2002, more than 300,000 people from 
across the country and from other nations visited the unique cultural 
institution.

Why a Wax Museum?
    Some of you may question why a wax museum would be appropriate to 
help teach the public about the history of great Black Americans. My 
husband and I felt strongly about the significance of the wax medium in 
bringing public attention to the faces of people who are deserving of 
recognition. We believed that of all artistic mediums, wax creates the 
closest likeness of the human face. Moreover, we felt that bringing the 
faces of great Black Americans into relief was one of the most 
important objectives of this museum, since historically great Black 
Americans' likenesses, as well as their stories, have not been well-
known to the public.
    Additionally, it is important to recognize that wax has 
historically been used in art and cultural institutions to depict 
significant people. The wax medium has long been recognized as a unique 
and artistic means to record human history through preservation of the 
faces and personages of people of prominence. Wax exhibits were used to 
commemorate noted figures in ancient Egypt, Babylon, Greece, and Rome, 
in medieval Europe, in the art of the Italian renaissance.
    Approximately 200 wax figures and scenes, a 19th century slave ship 
re-creation, a special permanent exhibition on the role of Youth in the 
making and shaping of history, a Maryland room highlighting the 
contributions of outstanding Marylanders to African-American history, a 
gift shop, a mini auditorium for lectures and films are some of the 
major cultural features currently on display at The Great Blacks in Wax 
Museum. The public's reaction to this wax museum speaks for itself. The 
Afro American newspaper has declared The Great Blacks In Wax Museum a 
``National Treasure.'' In fact, The Museum does serve the entire 
nation. International visitors have come from France, Africa, Israel, 
Japan, and many other continents and nations. The Great Blacks In Wax 
Museum story has been heralded by news media around the world, 
including CNN, The Wall Street Journal, The Washington Post, The New 
York Times, The Chicago Sun Times, The Dallas Morning News, Kulturwelt, 
USA/Africa, The Los Angles Times, USA Today, Crisis, Essence Magazine, 
Ebony Magazine, Good Morning America, ABC World News Tonight, BET, CBS 
Sunday Morning, National Public Radio, Maryland Public Television, To 
Tell the Truth, the CBS News Early Show, and The Amanda Lewis Show.

Future Exhibits of the National Great Blacks in Wax Museum
    As is stated in the Findings section of the proposed legislation, 
our museum proposes to tell the story in wax exhibits and other 
appropriate media of the remarkable achievements made by Black 
Americans in the national service over the years. Under this 
legislation, Great Black Americans will be memorialized by wax figures 
and other exhibits at the National Great Blacks in Wax Museum. The 
Museum will showcase the 22 Black Americans who served in the U.S. 
House and Senate in the 1800s, and those from the 1900s such as Sen. 
Edward Brooke (R-MA), and Reps. Julian Dixon (D-CA), Louis Stokes (D-
OH), and J.C. Watts, Jr. (R-OK).
    The National Great Blacks in Wax Museum will focus on Black 
veterans of various military engagements, including the Buffalo 
Soldiers and Tuskegee Airmen, and the role of Blacks in the settlement 
of the western United States. It will also showcase Blacks who served 
in senior civilian Executive Branch positions, and in the judiciary and 
other significant legal positions, as well as others who have not 
received appropriate recognition.

Funding Required for the Museum Expansion Project
    The current budget estimate to expand current museum facilities to 
create the National Great Blacks in Wax Museum totals $60 million. This 
multi-year budget will cover demolition and removal of current 
dilapidated and unsafe structures, gutting and renovating an entire 
city block, rebuilding a five-story museum complex, architects, 
engineers, and related site development costs, and the costs of 
designing and constructing new museum exhibits.
    Three-quarters of the funding for the museum expansion will be 
derived from nonfederal sources. These include the State of Maryland, 
which has already obligated over $3 million for the expansion project. 
Maryland Governor Robert Ehrlich is strongly supportive of this project 
and committed to our success.
    Another important funding source is the City of Baltimore. Mayor 
Martin O'Malley has obligated $2 million to date for the museum 
expansion, and is committed to using his municipal resources to assist 
with costs of the expansion. On September 3, the Mayor attended a 
groundbreaking ceremony at the Museum marking the demolition of 48 
structures to the rear of the property to make way for museum parking 
facilities. Much of the balance of the funding for the museum expansion 
will be contributed by the private sector.
    The Great Blacks in Wax Museum is in close dialogue with a large 
number of private sector grantmakers. These include major corporations 
such as AllFirst Bank, Bank of America Coca-Cola, Pepsi-Cola, Mercedes-
Benz, Hewlett-Packard, Tropicana, Target, K-Mart, General Mills, 
Marathon Oil, Hewlett Packard, Baltimore Gas and Electric, Advanta 
Corporation, Recording Industries Association of America, Heiniken, 
WalGreens, Wal-Mart, Sams Club and Sony.
    The Museum is also under consideration by major philanthropic 
foundations. These include Associated Black Charities, St. Paul 
Companies Foundation, Annie E. Casey Foundation, Baltimore Community 
Foundation, Abel Foundation, MetLife Foundation, Freddie Mac 
Foundation, AT&T Foundation, Microsoft Foundation, and Enterprise 
Foundation.

Community Support for our Initiative
    The Great Blacks in Wax Museum expansion program enjoys the strong 
support of the local community in East Baltimore, of allies throughout 
the State of Maryland, and of friends of the Museum throughout the 
nation. The many supporters and donors include the Prince Hall Masons, 
Links International, Zeta Phi Beta National Sorority, Kappa Alpha Psi 
National Fraternity, Delta Sigma Theta National Sorority, NAACP, Zion 
Baptist Church, ACTEX Foundation, the President's Round Table, The 
Baltimore Times, and the De'zert Club of Philadelphia.
    On behalf of the Board of Directors of The Great Blacks in Wax 
Museum, as well as the Museum's many supporters, I want to express our 
great appreciation for the opportunity to testify before the Committee 
today. We are grateful to the Subcommittee Chairman, Congressman 
Radanovich, the full Committee Chairman, Congressman Pombo, as well as 
the Subcommittee's Ranking Member, Congresswoman Christensen and the 
full Committee Ranking Member, Congressman Rahall. We appreciate the 
consideration of every member of this Committee for our plans to 
establish a national museum addressing the legacy of great Black 
Americans.
    I particularly want to express our appreciation to the sponsors of 
this legislation, Congressman Elijah Cummings and Senator Barbara 
Mikulski, as well as the bipartisan group of House and Senate 
cosponsors. We are convinced that this initiative will have a profound, 
positive impact on the ability to educate youth and the public about 
the contributions of great Black Americans and about American history.
    Thank you for your consideration of this legislation. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
    Mr. Radanovich. We are now joined by Mr. Matt Knox, who is 
Chairman of the Missouri River Stewards from Winifred, Montana. 
Mr. Knox, welcome to the Subcommittee. Please begin your 
testimony.

            STATEMENT OF MATTHEW O. KNOX, CHAIRMAN, 
           MISSOURI RIVER STEWARDS, WINIFRED, MONTANA

    Mr. Knox. Chairman Radanovich and members of the House 
Subcommittee, my name is Matt Knox and I am Chairman of the 
Missouri River Stewards. Our family ranch is in the Missouri 
Breaks northeast of Winifred, Montana. Our family does own 
deeded land within the Monument boundary as well as we have 
State lease and BLM lease within the Monument boundary.
    I am grateful for this opportunity to give testimony before 
you to support H.R. 1629. Before I state my reasons for 
supporting this legislation, I would like to give you a little 
background on the issue.
    The concept for a new designation for the Breaks first 
surfaced in early 1999 when former Secretary Babbitt floated 
the river and declared the area to be special and in need of 
additional protection. While we agreed with him that the area 
is, indeed, special, we felt strongly that the wild and scenic 
designation for the river, along with a myriad of wilderness 
study areas, ACECs, and National Historic Trails was ample 
protection. Holders of grazing allotments in the Breaks were 
already engaged with the BLM in watershed planning to ensure 
rangeland health was being maintained. The fact that this area 
remains special is a testimony to the stewardship practices 
that have been in place here since early settlement days. We 
strongly felt, if it isn't broke, let us not fix it.
    What followed, however, was a lengthy and, we believe, 
heavily manipulated public process that was conducted through 
the Central Montana RAC. We participated in this process in an 
effort to challenge the perceived need for additional 
designation. We were frustrated continually with the issue of 
boundaries. At no time were we shown a definitive map of the 
proposed designation. Land owners were never consulted about 
the prospect of having their lands included in the National 
Monument, and no one, including our elected officials, had any 
knowledge about the boundaries.
    Our first look at boundaries was when a map of the Monument 
was published in a local newspaper the day after designation. 
Not even the RAC knew what the boundaries would be, and for 
discussion purposes developed an arbitrary administrative unit 
for which all the recommendations could or would apply. It 
should also be noted that the RAC did not establish this unit 
until after the public debate period had ended.
    With that historical backdrop, I would like to address the 
most compelling question before this Subcommittee. Why should 
the private properties be removed from the Monument? Virtually 
every landowner having property in the Monument has signed a 
statement calling for their land to be removed. Over 3,300 
members of the public across Montana have signed a petition 
calling for the same thing. The majority of our elected 
officials in Montana support this effort.
    I think everyone understands when incidental private 
properties are included in a Federal designation, but when 
81,000 acres are purposefully included, that is a matter that 
demands remedy, especially when private lands are functioning 
as a substantial part of the perimeter boundary of a National 
Monument.
    The Constitution establishes Congress as the authority over 
public lands. We believe that Congress needs to be involved in 
deciding whether private property should be targeted for 
purchase and included in National Monuments. If Congress 
abdicates that responsibility, the decision falls solely to the 
current administration, whatever that might be.
    The message from Central Montana is clear. We want the 
private properties removed from the Monument, and there are 
several underlying reasons for that judgment. For example, most 
of the ranches in our area are a mix of Federal, State and 
private lands. Management decisions have been typically made in 
a cooperative manner. If the private lands in the mix are 
targeted for acquisition, it would be very easy and perhaps 
irresistible for Federal land managers to impose greater land 
use restrictions and regulations on grazing allotments to the 
extent that a willing seller is created. This could also have 
the unintended consequence of compelling landowners into 
selling to land developers.
    When private property becomes Federal, our school system 
suffers from the loss of the tax base. Payment in lieu of taxes 
represents minimal funding and the money goes to our county 
general fund and not to our local school districts.
    There is a ranch in our area that is highly coveted by the 
BLM. That ranch was nearly purchased by BLM a few years ago. 
That ranch alone contributes $15,000 a year, or close to 
$15,000 a year in property taxes to our local school district. 
The local community would suffer gravely with just the loss of 
this one ranch.
    In summary, removing the private property to clarify the 
Monument boundary is the right thing to do. If it is true that 
Monument rules do not apply to private lands, as Federal 
officials have stated, then one should not expect there to be 
any adverse impact on the remaining Federal lands and the 
Monument by their removal. Clearly, removing private land from 
the Monument will greatly reduce inadvertent trespass and 
conflicts between landowners and Monument visitors, facilitate 
management, and reduce the temptation for a Federal buyout.
    I urge this Subcommittee's full support of H.R. 1629 and I 
thank you for the privilege to testify before you on this 
matter that is so important to us in Central Montana. Thank 
you.
    Mr. Radanovich. Thank you, Mr. Knox. I appreciate your 
testimony.
    [The prepared statement of Mr. Knox follows:]

   Statement of Matthew O. Knox, Chairman, Missouri River Stewards, 
                    Winifred, Montana, on H.R. 1629

    Chairman Radanovich, and members of the House Subcommittee on 
National Parks, Recreation and Public Lands, my name is Matt Knox and I 
am Chairman of the Missouri River Stewards. I am a landowner and 
operate part of the family ranch in the Missouri Breaks located 24 
miles northeast of Winifred, Montana. I am grateful for this 
opportunity to give testimony before you in support of H.R. 1629.
    Before I enumerate my reasons for supporting this legislation, I 
would like to give you a little background on this issue.
    The concept for a new designation for the Missouri Breaks first 
surfaced in early 1999 when then Secretary of the Interior, Bruce 
Babbitt, floated the Upper Missouri River and declared the area to be 
special and in need of additional protection. While we agreed with him 
that the area is indeed special, we felt strongly that the Wild and 
Scenic designation for the river, along with a myriad of Wilderness 
Study Areas, ACEC's, and National Historic Trails, was ample protection 
for the area.
    Those of us who own grazing allotments in the Breaks were already 
engaged with the BLM in watershed planning, which is a process to 
ensure range land health is being maintained and riparian standards are 
being met. The fact that this area remains special today is a testimony 
to the success of the resource management practices and the love of the 
land that has been in place here since early settlement days. Our 
opinion on the entire designation matter was that ``if it ain't broke, 
let's not fix it.''
    What followed, however, was a lengthy, heavily manipulated public 
process that was conducted through the Central Montana Resource 
Advisory Council (RAC). Area landowners affected by the proposed 
designation actively participated in this public process in an effort 
to challenge the perceived need for additional protection for the area.
    Throughout the public process, a source of constant frustration for 
us was the issue of boundaries. At no time were we shown a definitive 
map of the proposed designation. Landowners were never consulted about 
the prospect of having their lands included in a National Monument and 
no one, including our county commissioners, state legislators, governor 
and congressional delegation, had any knowledge about the boundaries. 
Our first preview of the boundary was when a map of the Monument was 
published in a local newspaper the day after the Monument proclamation 
was issued.
    Not even the RAC knew what the boundaries would be. In the RAC 
report to the Secretary of the Interior on December 30, 1999, it was 
stated that throughout the December meeting there was discussion 
concerning the area in question. It was not until the December 8th 
meeting that the RAC decided upon a tentative administrative unit. The 
RAC referred to this unit as the Expanded Upper Missouri National Wild 
and Scenic River and all of the RAC's resolutions would apply to that 
area. It should also be noted that the RAC did not establish this 
administrative unit until after the public debate period had ended.
    Shortly after the RAC submitted its final report to the Secretary 
of the Interior, it became evident that the entire public process was 
more form than substance. On February 17, 2000, at the University of 
Denver Law School, then Secretary Babbitt announced his true intentions 
about land designations in the West. He stated: ``It would be great to 
get these protective issues resolved in the Congressional, legislative 
process. But if that's not possible, I'm prepared to go back to the 
President, and not only ask, not only advise, but implore him to use 
his powers under the Antiquities Act and to say to him: Mr. President, 
if they don't and you do, you will be vindicated by history for 
generations to come.''
    In other words, the Secretary was committed to adding designated 
lands to former President Clinton's Land Legacy Initiative by whatever 
means necessary. The Missouri Breaks would have to be nominated by 
Montana's Congressional Delegation for some form of designation such as 
a National Conservation Area, as he favored, or the President would 
declare the area a National Monument. In the end, the President did 
declare the Monument in the Missouri Breaks.
    With that historical backdrop, I would like to address the most 
compelling question before this Subcommittee: Why should the private 
property be removed from the Monument?
    Virtually every landowner having private property in the Monument 
has signed a statement calling for their land to be removed from the 
Monument. Over 3,300 members of the public across Montana have signed 
the petition to Congress calling for removal of the private property. 
Our Congressional Representative, one of our U.S. Senators, the 
Governor of Montana, the majority of Montana's Legislators, and County 
Commissioners in the four-county area of the Monument support the 
removal of private property from the Monument.
    I also believe that Congress, in passing the Antiquities Act of 
1906, did not intend for the President to have indiscriminate powers to 
include virtually unlimited amounts of private lands in National 
Monuments. I believe the intent of Congress was clearly articulated in 
the Antiquities Act by the provision that states that Presidents may 
establish National Monuments to protect historic or scientific objects 
that are situated on lands owned or controlled by the Government of the 
United States.
    I think everyone understands when incidental private property in-
holdings are included in a designation. But when 81,000 acres of 
private property are purposefully included that is a matter that 
demands remedy, especially when private lands are being used to form 
substantial parts of the perimeter boundary of a National Monument.
    We could not understand why the BLM went on a land-shopping spree 
to select private property for inclusion in the Monument, so we asked 
them. We were told that these were lands they wanted to acquire from 
willing sellers and if these lands were included up front in the 
Monument they could be reserved, upon purchase, as part of the Monument 
by the Secretary of the Interior. That way Congress would not have to 
be troubled to enact legislation to include these parcels as part of 
the Monument.
    We respectfully disagree with the BLM's rationale in this matter. 
The United States Constitution establishes Congress as the sole 
authority over public lands and I firmly believe that Congress needs to 
be involved in deciding whether vast tracts of private property should 
be targeted for purchase and included in National Monuments. If 
Congress abdicates that responsibility, the private land decision falls 
solely to the President.
    The message from central Montana is clear: We want the private 
property removed from the Monument. And there are several underlying 
reasons for that judgment.
    For example, most of the ranches in our area are a mix of federal, 
state and private lands. Management decisions have in the past been 
typically made in a cooperative manner. If the private lands in the mix 
are targeted for acquisition, it would be very easy, and perhaps 
irresistible, for federal land managers to impose greater land use 
restrictions and overregulate grazing allotments to the extent that a 
``willing seller'' is created. Heavy handed federal management could 
also have the unintended consequence of compelling landowners into 
subdividing and selling to the highest bidder such as land developers 
or business entrepreneurs.
    Whenever private property transitions to federal ownership, the 
community and its school system suffers from the loss of the tax base. 
The federal compensation for loss of tax revenues, known as PILT, 
represents minimal funding and the money goes to our county general 
fund and not to school districts.
    The PN ranch, located at the confluence of the Judith River and the 
Upper Missouri River, is a property highly coveted by the BLM that they 
nearly purchased for over five million dollars. That ranch contributes 
approximately $15,000 a year in property taxes to the local school 
district and spends many more thousands of dollars with local merchants 
and businesses. The local community would suffer gravely with the loss 
of just one ranch.
    The boundaries established for the western reach of the Monument 
especially lacks justification and includes only the running river 
water that is owned by the State of Montana and property that is owned 
by ranchers. One can only speculate about the objects of antiquity that 
are being protected by the river flow and by the adjacent private land. 
To correct this matter, there seems to be only one solution--remove the 
private property from the Monument.
    An observation conveyed to me by a colleague best sums up the need 
to remove the private property from the Monument. My colleague was 
camped on the Missouri River one evening when a number of people 
floating the river joined him at the campsite. He asked them what their 
impressions of the area were after their first day on the river. They 
replied that they found it rather strange to canoe all day on a river 
in a National Monument and everywhere they looked and everywhere they 
wanted to stop, they were surrounded by private property.
    It is my firm belief that removing the private property to clarify 
the Monument boundary is the right thing to do. If it is true that 
Monument rules do not apply to private lands, as federal officials have 
stated, than one should not expect there to be any adverse impact on 
the federal land in the Monument by removal of the private land. 
Clearly, removing private land from the Monument will greatly reduce 
inadvertent trespasses and conflicts between landowners and Monument 
visitors and diminish the temptation for federal buyouts.
    I urge this Subcommittee's full support of H.R. 1629 and I thank 
you for the privilege to testify before you on this matter that is so 
important to us in central Montana.
                                 ______
                                 
    Mr. Radanovich. Next up is Mr. Hugo Tureck, who is Vice 
Chairman of the Friends of the Missouri Breaks Monument, from 
Coffee Creek, Montana. Mr. Tureck, welcome to the Subcommittee, 
and you may begin your testimony.

  STATEMENT OF HUGO J. TURECK, VICE CHAIRMAN, FRIENDS OF THE 
        MISSOURI BREAKS MONUMENT, COFFEE CREEK, MONTANA

    Mr. Tureck. Thank you. Mr. Chairman, Representative 
Rehberg, and members of the Subcommittee, my name is Hugo 
Tureck. I am a rancher and Vice Chairman of the Friends of the 
Missouri Breaks Monument. Our organization is made up of 
business people, hunters, farmers, and ranchers, and those who 
love the open spaces of Montana. As a coalition, we are 
committed to protecting and preserving the Upper Missouri 
Breaks in its present form.
    I thank you for the opportunity today to testify in 
opposition to H.R. 1629. I have the privilege of being a public 
lands rancher not far from the Monument. We raise cattle and 
small grains on dry land operation that is suffering from an 
ongoing drought. Let me emphasize I reside outside of the 
Monument. However, I am a public lands rancher and I have had 
to deal with the BLM, as have those who oppose the Monument. 
However, I have never felt threatened by this agency, but 
rather felt that they have worked hard to build good working 
relationships.
    The BLM testimony to date mirrors much of the testimony 
that Ms. Morrison gave a year ago on June 13 when this bill was 
first presented. I would like to quote from her testimony. 
``While we at the BLM believe that the Presidential 
proclamation establishing the Monument makes it clear that the 
proclamation covers only federally owned lands within the 
Monument boundaries, the Department does support this bill 
because it would provide additional comfort for the 
landowners.'' What Ms. Morrison has stated is that this 
legislation does not protect private property, that these 
rights are already protected.
    I would like to argue that this legislation does not 
provide additional comfort, either, for those ranchers. Rather, 
it only reinforces people's unfounded fears of being betrayed 
by their government.
    Unlike the proclamation, H.R. 1629 does nothing to protect 
private property rights in the Monument. Private property 
rights are already protected by the proclamation. We live in a 
system of laws that protect private property rights. The 
Presidential proclamation provides another layer of protection 
by making clear that these rights are protected. The 
proclamation explains why private property was included in the 
boundaries of the Monument. The proclamation clearly states 
that if the property was significant, historical, cultural, 
wildlife, or landscape qualities or purchased by the United 
States from a willing seller, these lands will be reserved as a 
part of the Monument.
    While this legislation does nothing to protect private 
property rights, it does threaten the integrity of the Missouri 
Breaks National Monument. Many of the historical and cultural 
sites, such as the Nez Perce Trail, the Kid Curry Hangout, and 
Bull Whacker Trail are on private lands. These and other sites 
are part of our national identity. Today, if a landowner 
chooses to sell his land to the government, it becomes a part 
of the Monument. If this legislation passes, it would take an 
Act of Congress to purchase lands and then add them back to the 
Monument. This becomes a problem because there are over 415 
different parcels of land.
    This is not what the public wants, whether they live in 
Montana or in Florida. As Chairman of the RAC, I heard from 
people across Montana who wanted this place protected. Since 
designation, there have been numerous opportunities for public 
input into the future of the Breaks. Efforts to dismantle the 
Monument shortly after its designation generated over 1,400 
letters to our Governor, 1,100 of these asking her to keep the 
Monument as it is.
    There have also been two public comment periods as the BLM 
develops this management plan for the protection of the 
Monument in its entirety. The first, there were over 5,700 
letters, of which 5,602 supported the protection of the 
Monument in its entirety. Another comment period just closed 
and almost 7,000 people wrote the agency. It is clear that 
Montanans, like people across this country, want this place 
protected.
    There are other troubling things about this proposed 
legislation. It sets a precedent that may be applied to the 
other 15 Monuments managed by the BLM. It also sets a precedent 
that may be applied to other special places managed by the 
Department of Interior. The National Park Service oversees 395 
units. Private land is included in 242, or 61 percent of those 
sites, including Yellowstone, Valley Forge, and Gettysburg. How 
much proof do those opposed to the Monument need?
    Twenty-six years ago, Congress, led by Senator Metcalf of 
Montana, created the Upper Missouri River Wild Scenic River. 
Forty-six percent, or 35,800 of these 81,000 acres that this 
bill would remove from the Monument are within the boundaries 
of the Wild and Scenic River designation. Just think, 26 years 
ago, Congress knew that they could do this and private property 
rights would be protected and none would be violated. Twenty-
six years later, you know Congress was right, that private 
property rights were not violated and that the river was better 
protected than before.
    This Monument, with its inspiring landscape, celebrates 
Lewis and Clark and their role in the building of our nation. 
Let us not weaken this Monument by passing legislation such as 
this. Rather, it is time for us to work together to put in 
place a management plan for this new Monument that serves not 
just a few special interests, but all Americans now and for 
future generations. Thank you.
    Mr. Radanovich. Thank you, Mr. Tureck, for your testimony.
    [The prepared statement of Mr. Tureck follows:]

 Statement of Hugo J. Tureck, Public Land Rancher, and Vice-Chairman, 
         Friends of the Missouri Breaks Monument, on H.R. 1629

    Mr. Chairman, Representative Rehberg and Members of the 
Subcommittee, my name is Hugo Tureck. I am a rancher and Vice-Chairman 
of the Friends of the Missouri Breaks Monument. Our organization is 
made up of business people, hunters, farmers and ranchers and those who 
love the open spaces of Montana. As a coalition, we are committed to 
protecting and preserving the Upper Missouri River Breaks Monument in 
its present form.
    I thank you for the opportunity today to testify in opposition to 
H.R. 1629. My family and I have the privilege of being public land 
ranchers not far from the Monument. We raise cattle and small grains on 
a dry land operation that is suffering from an ongoing drought.
    I served on the Central Montana Resource Advisory Council (RAC) of 
the Bureau of Land Management (BLM) for six years. I was the Chairman 
during the entire public process that led to the designation of the 
Upper Missouri River Breaks National Monument in 2001. Our RAC is made 
up of 15 individuals representing many different points of view 
including ranchers, sportsmen, conservationists, elected officials and 
individuals representing oil and gas and timber interests. The RAC is a 
consensus council, that works to find common ground on natural resource 
issues affecting the public lands managed by the BLM.
    As Chairman of the RAC, I oversaw the preparation for and 
development of the report to the Secretary of Interior that resulted in 
the designation of the Missouri Breaks as a National Monument. That 
report summarized an inclusive public process undertaken by the RAC, at 
the request of the Secretary, to determine how Montanans felt about the 
public lands--a vast and wondrous landscape--that we call the Missouri 
Breaks. Our charge was to find out what Montanans agreed upon, what 
kind of a future we wanted for these lands.
    Before the RAC accepted this task, we held a public meeting in 
Lewistown, Montana, seeking public input on whether or not this project 
was something that the people of north central Montana wanted us to 
work on. The meeting room was packed with people, mostly ranchers and 
farmers, who asked the RAC to become involved, which we did.
    To reach the greatest number of people living in the area around 
the Breaks, we conducted hearings in several communities in Central 
Montana. To facilitate maximum participation we met for two days in 
each of those communities and accepted testimony during the day as well 
as in the evening. Hundreds of Montanans from all walks of life felt 
this issue important enough that they took time from their busy lives 
to attend the meeting presenting statements and listening to others. We 
also received hundreds of letters.
    As I listened to the testimony and read the many letters, I was 
moved by the passion that Montanans felt for this place. Rancher or 
floater, hiker or hunter, bird watcher or just a person seeking 
solitude; it made no difference. All felt a special love for this land 
we call the Missouri Breaks.
    This is what the RAC reported to the Secretary of the Interior: 
Montanans wanted this enchanted place to remain as wild tomorrow as it 
is today. Montanans also wanted to see the cultural and historical 
artifacts that abound in this Monument protected and they consider it 
critical that wildlife habitat be enhanced. The people of my state also 
wanted to see traditional uses including hunting, fishing and grazing 
to continue. Finally, and of critical importance, Montanans wanted to 
make sure that all private property rights were protected. While the 
RAC did not make a recommendation to the Secretary regarding Monument 
designation (and therefore did not address boundaries we were in full 
agreement that this special landscape needed and deserved special 
management to protect its unique resources.
    It is important for you to know that the majority of Montanans that 
testified and wrote letters supported the idea of a Monument as the 
best way to protect this landscape. They were also adamant in voicing 
that public land belongs to all Montanans and to all Americans. It was 
a small minority that opposed the Monument.
    When the President of the United States, using the powers given to 
him by Congress, through the Antiquities Act, created the Missouri 
Breaks Monument, he did so using the report from the Central Montana 
RAC to the Secretary. The Proclamation was written to reflect the 
values Montanans strongly agreed upon, such as continued hunting and 
grazing. It also reflects our recommendation to include specific and 
clear language to protect private property rights.
    The Monument Proclamation states that: ``establishment of this 
Monument is subject to valid existing rights''. The Proclamation 
further states that ``...there are hereby set apart and reserved as the 
Upper Missouri River Breaks National Monument, for the purpose of 
protecting the objects identified above, all lands and interests in 
lands owned or controlled by the United States.''
    Unlike the Proclamation, H.R. 1629 does nothing to protect private 
property rights in the Monument. Private property rights are already 
protected by the Proclamation and within existing government law and 
policy. We live in a system of laws that protect private property 
rights. The Presidential Proclamation provides another layer of 
protection by making clear that private property rights are protected.
    There are numerous rumors about how our government has cynically 
tried to force or intimidate individual landowners into selling, or how 
our government has attempted to restrict private property rights. As a 
public lands rancher I am naturally curious if any of these rumors can 
be substantiated. I have called upon those making these claims to give 
us evidence. I have yet to see any.
    The Proclamation explains why private property was included within 
the boundaries of the Monument. The proclamation clearly states that if 
property with significant historical, cultural, wildlife or landscape 
qualities are purchased by the United States from a willing seller, 
these lands will be ``reserved as part of the Monument.''
    Why is this important? There are a significant number of historical 
and cultural sites that are on private land, but are an integral part 
of the historic and wildlife landscape. Sites like the Nez Pearce Trail 
where in 1877 Chief Joseph led his band across the Missouri River and 
up Cow Creek toward his final battle with General Miles. Sites like the 
Kid Curry hangout where gunfighters and rustlers hid from the law. 
Sites like the Bull Whacker Trail where bull trains hauled supplies 
from Cow Island to Ft. Benton when the water levels were so low that 
river travel was impossible.
    These and other sites are a part of our national identity. These 
are sites that help us define ourselves as Americans and deserve 
adequate protection for future generations to enjoy. Today, if a 
landowner chooses to sell his land that contains one of these sites to 
the government, it becomes a part of the Monument and is protected for 
all Americans. If this legislation passes, lands that the BLM might 
acquire through purchase, trade or donation could not be added to the 
Monument without additional legislation or another Presidential 
Proclamation. This would be the case for each acquisition--which means 
extra work for Congress or the President and additional costs to the 
American taxpayer, as legislation is expensive in both time and money.
    If this bill passes it also means that if BLM does acquire land 
through purchase, trade or donation, that land would not be part of the 
Monument and would therefore not be given the same protection. Those 
newly acquired lands would be open to oil and gas development and a 
host of other potential threats, creating a formidable and expensive 
management challenge for the BLM which makes it very unlikely that the 
agency would seek to acquire, from willing sellers, any in-holdings in 
the Monument. Either way, the public loses and the future of the 
Monument and its abundant wildlife, historical, and ecological values 
now within the boundary will be jeopardized, and our ability to 
preserve a piece of history and wildness will be ultimately lost.
    This is not what the public wants whether they live in Montana or 
in Florida. As chairman of the RAC I heard from people across Montana 
who wanted this place protected. Since designation there have been 
numerous opportunities for public input into the future of the Breaks. 
Efforts to dismantle the Monument shortly after its designation 
generated over 1400 letters to our governor, 1100 asking her to keep 
the Monument as it is. There have also been two public comment periods 
as the BLM develops a management plan for the Monument--the first 
generated about 5,700 public comments and 5,602 supported protection of 
the Monument in it's entirety. Another comment period has just closed 
and almost 7,000 people wrote the agency and we are waiting for the 
analysis of those comments. It is clear that Montanans, like people 
across this country, in increasing numbers, want this land protected. 
The bill we are discussing today offers a facade of comfort to the few 
people who oppose the Monument while ignoring what the majority of 
Americans and Montanans want.
    Last year, Representative Rehberg told the editorial board of the 
Montana Havre Daily News that ``he wants to eliminate any worries the 
landowners may have that the federal government would somehow try to 
restrict the landowners use of their own property.'' The Havre Daily 
News responded in their editorial as follows: ``Rather than 
exacerbating people's fears, Rehberg should be reassuring landowners 
that they have nothing to worry about.''
    Representative Rehberg has also stated that including private land 
within the boundaries of the Monument will open that land up to 
vandalism and trespass. But in reality drawing a line on a map would be 
of little help. On our ranch, our private lands are checkerboarded with 
public lands. It is almost impossible for a person to tell where my 
private land ends and the public's land begins. If I want to keep the 
public off of my property and on the public land, I would need to 
clearly mark my boundaries. This is already my right and my 
responsibility.
    There are a few very troubling things about this proposed 
legislation. It sets a precedent that may be applied to the other 
fifteen Monuments managed by the BLM, thirteen of which also have 
private lands within their boundaries. It also sets a precedent that 
may be applied to other special places managed by agencies under the 
Department of Interior, such as other National Monuments and National 
Parks. The National Park Service (NPS oversees 395 units that include 
many different designations such as National Parks, National Monuments 
and National Historic Parks. Private land is included in 242 or 61 
percent of those sites, which include sites such as Yellowstone and the 
Grand Canyon as well as sites like Harper's Ferry, Valley Forge, the C 
& O Canal, and Gettysburg.
    It is also troubling that those asking for this legislation seem to 
have little trust in their government to treat its citizens fairly. It 
also seems those asking for this legislation have little faith in their 
fellow citizens, yet ask these citizens to trust them when they 
proclaim that they are the stewards of these public lands.
    Twenty-six years ago, Congress led by Senator Metcalf of Montana 
created the Upper Missouri River Wild and Scenic River. Forty-six 
percent or 35,800 of the 81,000 acres that this bill would remove from 
the Monument are within the boundaries of the wild and scenic 
designation. Just think, twenty-six years ago Congress knew that they 
could do this and private property rights would not be violated. 
Twenty-six years later, we know Congress was right--that private 
property rights were not violated and that the river was better 
protected than before.
    Twenty-six years later the President of the United States using the 
powers granted to him through the Antiquities Act created a Monument 
protecting a larger area for future generations. This Monument with its 
inspiring landscape celebrates Lewis and Clark and their role in the 
building of a nation. It celebrates so much of what they stood for. Let 
us not weaken this Monument by passing legislation such as this. 
Rather, let us work together to put in place a management plan for this 
new Monument that serves not just a few special interests but the 
interests of all Americans now and for future generations.
                                 ______
                                 
    Mr. Radanovich. We will begin with questions from my 
colleagues up here on the dais.
    Ms. Roeser, I have got a couple of questions for you. Can 
you give us an example here in the Committee of how you have 
tried to work with the Federal agencies to resolve some of the 
access problems that you have had with the trails?
    Ms. Roeser. Yes. We have been involved throughout any 
development of management plans, certainly from the scoping 
process, comment periods, and then comments on the final 
documents numerous times on numerous different units, from the 
John Muir-Ansel Adams Wilderness to Yosemite Park, Sequoia 
Park, on and on. Oftentimes, our comments were just given sort 
of a perfunctory review, so we would often take them to the 
next level, which would mean appeals to the Regional Forester 
in the case of the Forest Service, appeals to the Chief of the 
Forest Service, and so on. So we have followed that route 
numerous times.
    There has been dozens and dozens of public hearings, public 
comment periods, and we have even been forced with legal action 
actually a few times, so it has been numerous.
    Mr. Radanovich. Thank you. In the prior panel, Mr. Calvert, 
representing the Department of Interior, stated that my 
legislation was not necessary because the current process of 
categorical exclusions is NEPA compliant. However, is it your 
feeling that if a normal NEPA process were required prior to 
the trail closures you mentioned and a public comment period 
was required, as would be under NEPA, having that process 
mandated, would that be helpful in addressing the problems that 
you mentioned?
    Ms. Roeser. It would certainly be a huge start. Many times, 
decisions are made without the input of stock users and 
certainly without the input of people who do not own stock but 
wish to use stock, in other words, hiring a commercial 
outfitter. So that input is often not received, first of all.
    And second of all, we believe that this simply reiterates 
what is already in the law that has been repeatedly ignored by 
the land agencies for many, many years.
    Mr. Radanovich. Thank you very much.
    We are now joined by Mr. Elijah Cummings, who could not 
attend earlier because of some Floor activity. Mr. Cummings, 
welcome back to the Subcommittee. If you would like to give 
your statement, and then we will go ahead and open up this 
entire panel then to questions from members of the dais.

STATEMENT OF HON. ELIJAH CUMMINGS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Cummings. Thank you very much, Mr. Chairman. I really 
appreciate your courtesy and thank the Committee.
    Chairman Radanovich and Ranking Member Christensen and 
members of the Subcommittee, I want to thank you for the 
opportunity to appear before you today to discuss legislation 
which is of great importance to me, the National Great Black 
Americans Commemoration Act, H.R. 2424, S. 1233.
    The legislation which I have introduced jointly with my 
good friend, Senator Barbara Mikulski of Maryland, would 
authorize Federal assistance in the establishment of an 
institution of great significance to this nation, the National 
Great Blacks in Wax Museum.
    The National Great Black Americans Commemoration Act will 
help to bring long-overdue recognition to African Americans who 
have served our nation with distinction. But those names, 
faces, and records of achievement are not well-known by the 
public. This legislation, introduced in June, enjoys the 
bipartisan support and cosponsorship of more than 50 of our 
colleagues in the House. Senator Mikulski's companion bill, S. 
1233, has already passed the Senate.
    The Great Blacks in Wax Museum, America's first wax museum 
of black history, was founded in the early 1980s. The museum 
occupies part of a city block in East Baltimore and currently 
includes approximately 200 exhibits. Existing figures depict 
Colin Powell, Harriet Tubman, Dr. Martin Luther King, Jr., Mary 
McCloud Bethune, and former Representatives Robert Smalls of 
South Carolina, Mickey Leland of Texas, Parren Mitchell and 
Kweisi Mfume of Maryland, and Shirley Chisholm and Adam Clayton 
Powell of New York. This legislation will help to present the 
faces and stories of black Americans who have reached some of 
the highest levels of national, and sometimes international, 
service, but who are generally unknown.
    A priority in this museum expansion project will be the 
creation of new exhibits presenting black Americans who served 
in this Congress during the 1800s, some born in slavery and 
others born free. These great Americans proudly served their 
constituencies and this nation. The expanded museum will also 
focus on black military veterans, on black judges, lawmen, and 
prominent attorneys, and the role of blacks in discovery and 
settlement.
    This legislation will help to showcase blacks who have 
served in senior civilian executive branch positions. These 
include Ralph Bunch, E. Frederick Morrow, Robert Weaver, 
William Coleman, Patricia Batt Harris, Louis Sullivan, and 
others who have not received appropriate recognition.
    The State of Maryland and the City of Baltimore already 
have contributed over $5 million toward this expansion project, 
which will occupy an entire city block in an empowerment zone 
area. The museum is conducting extensive outreach to major 
corporations and other private donors. This legislation 
authorizes a Federal share not to exceed 25 percent or $15 
million, whichever is less, of the expansion project dollars.
    I am very pleased by the strong support that has been 
exhibited for this legislation on both sides of the aisle, in 
the Senate as well as the House. The Senate companion bill, S. 
1233, passed the Senate by unanimous consent. It is a little 
more than a month after its introduction in June of this year. 
The House version, H.R. 2424, has attracted the support and 
cosponsorship of more than 50 of our colleagues, both 
Republicans and Democrats, as well as members of the two House 
committees of jurisdiction, the Committee on Resources and the 
Committee on the Judiciary.
    This legislation is, indeed, a tribute to the people of my 
Congressional district who believe in the power of a cultural 
institution, such as a museum, to bring about positive change 
in a challenged community. It also very importantly constitutes 
the realization of a dream of two great Americans, the late Dr. 
Elmer Martin and Dr. Joanne Martin, who is with us today.
    At great personal sacrifice, the Martins dedicated 
themselves to building a cultural institution of prominence in 
a part of our city where no other such institution would choose 
to locate. They passed up opportunities to establish their 
museum in far more lucrative, tourist-oriented sites in 
Baltimore, choosing instead to remain instead in a fragile 
community in East Baltimore.
    I would also like to point out the phenomenal success of 
this initiative. The Great Blacks in Wax Museum draws more than 
a quarter-million visitors per year, including several members 
of Congress and their staff and I, I might add. More than 50 
percent of those visitors are schoolchildren. On a typical 
day's visit to The Great Blacks in Wax Museum, you will find 
school buses lining the block on East North Avenue, including 
buses from other States. A destination for scholars as well as 
students, receiving over one million hits annually on its 
website, The Great Blacks in Wax Museum truly deserves its 
reputation as a national treasure.
    I urge the support of all members of the Committee for this 
legislation to assist with the establishment of the National 
Great Blacks in Wax Museum and I thank you for your 
consideration of this important preservation and community-
building initiative and I look forward to working with the 
Committee in bringing it to fruition. And I thank you again, 
Mr. Chairman.
    [The prepared statement of Mr. Cummings follows:]

  Statement of The Honorable Elijah E. Cummings, a Representative in 
           Congress from the State of Maryland, on H.R. 2424

    Chairman Radanovich, Ranking Member Christensen and Members of the 
Subcommittee, I thank you for the opportunity to appear before you 
today to discuss legislation which is of great importance to me, the 
National Great Black Americans Commemoration Act (H.R. 2424/S. 1233). 
This legislation which I have introduced jointly with Senator Barbara 
Mikulski would authorize federal assistance in the establishment of an 
institution of great significance to this nation, the National Great 
Blacks in Wax Museum.
    The National Great Black Americans Commemoration Act will help to 
bring long overdue recognition to African Americans who have served our 
nation with distinction, but whose names, faces, and records of 
achievements are not well-known by the public. This legislation, 
introduced in June, enjoys the bipartisan support and cosponsorship of 
more than 50 of our colleagues in the House. Senator Mikulski's 
companion bill (S. 1233) has already passed the Senate.
    The Great Blacks in Wax Museum, America's first wax museum of Black 
history, was founded in the early 1980s. The museum occupies part of a 
city block in East Baltimore, and currently includes approximately 200 
exhibits. Existing figures depict Colin Powell, Harriet Tubman, Dr. 
Martin Luther King, Jr., Mary McLeod Bethune and former Representatives 
Robert Smalls of South Carolina, Mickey Leland of Texas, Parren 
Mitchell and Kweisi Mfume of Maryland, and Shirley Chisholm and Adam 
Clayton Powell of New York.
    This legislation will help to present the faces and stories of 
Black Americans who have reached some of the highest levels of national 
service, but who are generally unknown. A priority in this museum 
expansion project will be creation of new exhibits presenting Black 
Americans who served in Congress during the 1800s. Some born in slavery 
and others born free, these Americans proudly served their 
constituencies and the nation. The expanded museum will also focus on 
Black military veterans, on Black judges, lawmen and prominent 
attorneys, and the role of Blacks in discovery and settlement.
    This legislation will help to showcase Blacks who served in senior 
civilian Executive Branch positions. These include Ralph Bunche 
(Franklin Delano Roosevelt Administration), E. Frederic Morrow 
(Eisenhower Administration), Robert Weaver (Johnson Administration), 
William Coleman (Ford Administration), Patricia Harris (Carter 
Administration), Louis Sullivan (George H.W. Bush Administration), and 
others who have not received appropriate recognition.
    The State of Maryland and the City of Baltimore already have 
contributed over $5 million toward this expansion project which will 
occupy an entire city block in an Empowerment Zone area. The museum is 
conducting extensive outreach to major corporations and other private 
donors. This legislation authorizes a federal share not to exceed 25%, 
or $15 million (whichever is less) of the expansion project.
    I am very pleased by the strong support that has been exhibited for 
this legislation on both sides of the aisle, in the Senate as well as 
the House. The Senate companion bill, S. 1233, passed the Senate by 
unanimous consent a little more than a month after its introduction in 
June of this year. The House version, H.R. 2424, has attracted the 
support and cosponsorship of more than 50 of our colleagues, both 
Republicans and Democrats as well as members of the two House 
committees of jurisdiction, the Committee on Resources and the 
Committee on the Judiciary.
    This legislation is a tribute to the people of my congressional 
district who believe in the power of a cultural institution such as the 
Museum to bring about positive change in a challenged community. It 
also, very importantly, constitutes the realization of a dream of two 
great Americans, Drs. Elmer and Joanne Martin. At great personal 
sacrifice, the Martins dedicated themselves to building a cultural 
institution of prominence in a part of our city where no other such 
institution would choose to locate. They passed up opportunities to 
establish their museum at far more lucrative, tourist-oriented sites in 
Baltimore, choosing instead to remain in a fragile community in East 
Baltimore.
    I would also like to point out the phenomenal success of this 
initiative. The Great Blacks in Wax Museum draws more than a quarter 
million visitors per year, including several members of Congress and 
their staff I might add. More than 50 percent of those visitors are 
schoolchildren. On a typical day's visit to The Great Blacks in Wax 
Museum, you will find school buses lining the block on East North 
Avenue, including buses from other states. A destination for scholars 
as well as students, receiving over 1 million hits annually on its web 
site, The Great Blacks in Wax Mmuseum truly deserves its reputation as 
a ``national treasure''.
    I urge the support of all members of this Committee for this 
legislation to assist with establishment of the National Great Blacks 
in Wax Museum. Thank you for your consideration of this important 
preservation and community-building initiative and I look forward to 
working with the Committee on bringing it to fruition.
                                 ______
                                 
    Mr. Rehberg. [Presiding.] At this time, we will go back to 
the questioning of the various witnesses. I would like to begin 
by asking Mr. Tureck, why do you think you love Montana's lands 
more than Mr. Knox?
    Mr. Tureck. I didn't say that.
    Mr. Rehberg. Well, Mr. Knox's property is included inside 
the boundary, his private property, and yours is not, and you 
are making a determination on his private property. What gives 
you the right as an American citizen to determine what he does 
with his private property?
    Mr. Tureck. I am not in any way determining what he does 
with his property. His property rights are totally protected.
    Mr. Rehberg. So why wouldn't you support legislation? If he 
requests to have his private property taken out of the 
boundaries, why can't he do that?
    Mr. Tureck. What is the cost to him of having it in the 
boundaries? The advantage is that there is another potential 
buyer out there if he ever wants to sell his land.
    Mr. Rehberg. Let me ask you this. In your testimony, you 
characterize oil and gas development among the threats to 
private land that might be possible, if not for the Monument 
designation. My question is two-fold. First, do you believe 
that you are the best decisionmaker for property that you do 
not own, and second, have you placed a perpetual easement on 
your property that would ensure that your property would never 
be susceptible to these types of threats?
    Mr. Tureck. Let me start with the second question, if I 
may. We own land on Square Butte, which is a natural area. It 
is the world's largest laccolith. It has been visited since the 
1880s by geologists from across the world. It is a very fragile 
area. I would like to announce that, yes, we have put a 
conservation easement up there that is probably the most 
restrictive easement you will ever see. OK. The only economic 
activity allowed on our land up there is grazing. There can 
never be a house built. There can be no mining. We will not 
allow power lines to go across it nor roads to be built.
    Mr. Rehberg. How would you feel personally if Mr. Knox 
determined that the rest of your ranch ought to be included in 
that same easement and came to the government and said, without 
Mr. Tureck's knowledge, we are going to put that all in an 
easement and we are going to affect his future ability to 
develop his property?
    Mr. Tureck. There is nothing stopping Mr. Knox from 
developing his property now.
    Mr. Rehberg. He has land in-holdings. He makes a 
determination he wants to develop a well. Are you going to be 
sitting before us supporting a pipeline being built across 
Federal properties to take the oil out of his in-holding?
    Mr. Tureck. I doubt it, because I would protect the Federal 
lands, but he can put that well in. He can subdivide. He can do 
what he wants to do.
    Mr. Rehberg. He just can't get it out.
    Mr. Tureck. But that might be a problem otherwise.
    Mr. Rehberg. But less of a problem if all he has to deal 
with is the Bureau of Land Management.
    As former Chairman of the Central Montana Resource Advisory 
Council, on December 30, 1999, you submitted recommendations 
made by your council to then-Interior Secretary Babbitt. 
Section 6 of those recommendations, entitled ``Issues Not 
Covered,'' lists both private property and boundary issues as 
issues that were not covered. However, in your testimony, you 
state that the President created the Missouri Breaks Monument 
using those recommendations.
    It would seem clear to me that if private property rights 
and boundary issues, the two most central issues in today's 
discussions, were not covered, as your report clearly 
indicates, you would be in favor of my bill in an attempt to 
fully cover these issues.
    Mr. Tureck. First of all, private property rights were 
addressed by the RAC. We recommended all private property 
rights be respected, and that is what the proclamation did. We 
did not talk about boundaries, because we did not talk about 
designation. We knew that there was no consensus on that. We 
are a consensus council.
    Mr. Rehberg. As Chairman of the RAC----
    Mr. Tureck. Let me finish if I may, sir.
    Mr. Rehberg. You may.
    Mr. Tureck. OK. As a consensus council--or the ranchers 
that oppose this Monument refuse to talk boundaries because 
they refuse to talk about designation. There was not going to 
be a designation. They fought that to the final end. That was 
their choice.
    Mr. Rehberg. As Chairman of the Resource Advisory Council, 
you are pretty aware of probably who the membership of that 
committee was. Were any of the landowners who have land 
currently in the boundary on the President's Resource Advisory 
Committee? Now, the President has the ability through the 
Secretary of Interior to appoint anybody he wants, so he had 
the ability to appoint landowners who have land inside those 
boundaries. Were any of those members on that Advisory Council?
    Mr. Tureck. At the time, no, but let me explain. Nobody 
applied from within where the boundaries now rest. Nobody had 
ever applied. I had asked people to apply. I said, this is 
somewhere you should get involved. They did not apply. But----
    Mr. Rehberg. In your testimony----
    Mr. Tureck. Let me finish.
    Mr. Rehberg. In your testimony, you brought up a lot of 
peripheral issues, such as the potential impact or effect on 
other places, like Glacier or Yellowstone or Yosemite. Show me 
in the bill where this specifically deals with any other 
Monument other than the Missouri Breaks Monument.
    Mr. Tureck. In all due respect, Representative Rehberg, 
this sets a precedent, and as you yourself pointed out today, 
this administration is going to be different from the next 
administration. Once this precedent is set, where does it go 
next? I anticipate----
    Mr. Rehberg. I would put it to you, Mr. Tureck, that the 
Congress has, in fact, adjusted boundaries in the past. The 
precedent has been set long before this Congress. This just 
rights a wrong for one specific boundary in one specific 
Monument.
    Mr. Tureck. This does much more than just the boundary. 
This also removes all private lands within the Monument.
    Mr. Rehberg. My time is up. I will recognize Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Let me address a question to Dr. Martin, but first, I want 
to thank her on behalf of the Committee for her very compelling 
testimony and to commend you and your husband for not only 
preserving our past, but protecting our future.
    I was wondering if, you know, we have a number of museums 
and monuments across the country, some of them are Federal but 
some are privately owned or locally or State-owned. Some are 
still being established. Is there any formal or informal 
collaboration planned so that that story can be told in a 
more--with more continuity and there be more coordination among 
all of our museums that tell the story of African Americans in 
the past.
    Dr. Martin. Museums today clearly understand the need to 
collaborate when you look at the economic climate that we find 
ourselves in and the ways in which the tourism industry is 
affected by any number of issues and occurrences on the 
national scene, in the national scene. So more and more, 
museums are forming alliances. We are looking to the American 
Association of Museums, for example, or the Association of 
African American Museums. Within our individual States, we 
belong to tourism councils and so forth.
    And as we begin to reach out to one another, then that 
brings us in touch with the kind of expertise that many of us 
simply cannot afford. It allows us to share resources, to share 
stories, experiences. So that is clearly on all of our agendas, 
to collaborate more and to understand that there is strength 
through unity.
    Mrs. Christensen. Thank you for your answer.
    Mr. Knox, are you aware that there are more than 35,000 
acres of private land within the Upper Missouri Wild and Scenic 
River, which were designated in 1976 and which are part now of 
the current Monument?
    Mr. Knox. Yes, I am.
    Mrs. Christensen. And do you know of any situations where 
the BLM violated the private property rights of landowners 
within the Upper Missouri Wild and Scenic Rivers since that 
time, since 1976?
    Mr. Knox. Not specifically, no, but I can give you a little 
background on why we ended up grudgingly, I have to say, but we 
did end up cooperating with and get along fairly well with the 
Wild and Scenic designation.
    First of all, it was done by Congress and we felt, whether 
we liked it or not, Congress did what they did.
    Second, this Monument, or, I mean, excuse me, this 
designation was written with a multiple-use mandate. It is, to 
my knowledge, the only Wild and Scenic River Act that was 
created that way.
    And what we are always concerned about with the mix of 
private and Federal lands, of course, is that the private lands 
are the base properties for grazing allotments. Almost all of 
these private lands that you see on this map are the base 
properties for grazing allotments. And everything that is done 
on Federal land that affects that grazing allotment affects 
that private property.
    So when the Wild and Scenic River Act was passed with a 
multiple-use mandate by Congress, we felt we had to accept it 
and we did.
    Mrs. Christensen. I will probably come back to you with 
another question, but before my time runs out, I wanted to ask 
Mr. Tureck a question also. Do you recall how many hearings or 
public meetings the Resource Advisory Council which you chaired 
held on the Upper Missouri Breaks National Monument, and do you 
believe those meetings were a sham, as some of the people have 
claimed?
    Mr. Tureck. No, I don't believe those meetings were a sham. 
First of all, we held the first meeting actually to consider 
whether we should even take this issue up as an RAC, and that 
meeting was well attended. A great number of the people were 
actually from Winifred and down on the river said they wanted 
the RAC to take it because that was their only hope. When we 
didn't come up, I guess, with the recommendation they wanted, 
then we were a failure.
    But we traveled to three cities. We spent two days in each 
city to take testimony. Over 200 people testified. We took it 
during the day and at night both, so those people who felt 
importantly about this could come and talk. Then we also took 
written comments. Over 200 letters were also received. It was 
this that we turned around and dealt with in our 
recommendations.
    And in our recommendations, let me point out, we 
recommended multiple use for the Monument. Grazing is 
grandfathered in. It is mentioned in the proclamation. So is 
hunting and fishing. I would argue that actually Mr. Knox's 
rights are better protected than mine, of grazing on public 
lands.
    Also, I would like to point out that if any land is 
purchased by the Federal Government from a willing seller, that 
land would automatically be operated under tailored grazing 
and, therefore, be given back out to grazing.
    Could I make one more comment, too----
    Mrs. Christensen. Sure----
    Mr. Tureck [continuing]. And this has to do with the tax 
base that Mr. Knox alluded to being lost if you turned around 
and sold land to the Federal Government, that that would be 
lost. I pay on my rough break somewhere between 15 and 50 cents 
an acre, depending on the class of land. Per acre, that is what 
I pay in taxes. The government gives $1.35 an acre, per acre, 
in PILT payments locally. Those payments go directly to the 
county.
    The county--I think Congress in its infinite wisdom here 
and the BLM decided not to micromanage that money but rather 
let the counties manage it. Fergus County has chosen to spend 
that money on roads. We, the taxpayers, will turn around, and 
those who elect these county commissioners, and say, spend that 
money on schools.
    So I don't see that there is necessarily--and he mentioned 
the one ranch. I calculated the PILT payments versus the taxes 
they pay. It would be almost identical.
    Mr. Rehberg. Mr. Bishop?
    Mr. Bishop. Thank you. First, Dr. Martin, I know this is 
not a question, but I couldn't pass you by without at least 
thanking you for the comments that you made orally here.
    Dr. Martin. Thank you.
    Mr. Bishop. Your discussion on heritage, I think was 
beautiful. All of us are a byproduct of our ancestry. That is 
what creates us. And the future generations--this is the old 
history teacher in me coming out--will never understand 
themselves until they can go back and understand their 
heritage, and I just want you to know how much I appreciated 
the words you said and the efforts you are doing. I will raise 
my voice at the end so it sounds like a question, but it is not 
really there. But I just want to thank you for what you said.
    Dr. Martin. Well, I am an English teacher, so that didn't 
work, but----
    [Laughter.]
    Dr. Martin. Thank you very much. I appreciate that.
    Mr. Bishop. Mr. Tureck, if I could ask you a question. In 
your testimony, one of the reasons you gave for continuing the 
status quo is the inclusion of private property in the Monument 
if at some future time it should be purchased, but it would 
automatically be included. And you characterized going the 
other direction, which is equally effective, of letting the 
land go and then buying it by Congressional action as 
burdensome and a waste of taxpayer money. In fact, the direct 
words were, it would mean extra work for Congress or the 
President and additional cost to the American taxpayers, as 
legislation is expensive in both time and money. I find that 
unique, because I think that we would define those terms 
differently. I think we would call that the democratic process.
    I guess my question has to be, is it your honest feeling 
that the benefit of automatic inclusion outweighs the efforts 
of giving affected landowners their say in a Congressional 
approach.
    Mr. Tureck. Since we are basically talking about only 
buying land from willing sellers, the landowners have the right 
to sell to who they want if they want to sell, but it is only 
to willing sellers. Why do we need a Congressional hearing? And 
Congress does have basically a veto on this because they--it is 
through appropriations. But it is not in condemnation. BLM has 
no rights to condemnation. It is to willing sellers.
    Mr. Bishop. Well, let me try this. Mr. Knox, you own land 
in this Monument, correct?
    Mr. Knox. Yes.
    Mr. Bishop. Are you presently a willing seller?
    Mr. Knox. No.
    Mr. Bishop. And I understand of the 127 owners, 125 of them 
want out of this Monument designation.
    Mr. Knox. Yes.
    Mr. Bishop. What would create you to be a willing seller in 
the future?
    Mr. Knox. Well, as I stated earlier, where we are very 
concerned, and we always will be as long as we are ranching in 
that area, and hopefully we will be ranching there--I would 
like to see my daughters have the same opportunity that my wife 
and I have had--but what we are always concerned about is the 
private lands attached to the Federal lands and the effect that 
management decisions made by BLM have on those private lands.
    And when you institute or impose, in this case, a new 
Federal designation on an area, you know, these new 
designations always come with some kind of new management 
restrictions. We are still in the middle of the RMP process so 
we don't know what those will be. But those will have a direct 
bearing and a direct effect on not only how we use our private 
lands, but also the value of those private lands. So for people 
to think that somehow this doesn't have any effect, they are 
very wrong.
    Mr. Bishop. Mr. Knox, help me understand if I am going 
through this analysis in any way inaccurately. When Congress 
originally established the process for creating public lands, 
Monuments, et cetera, as they went through both a FLMPA and 
NEPA process, it was for the due process effort that was part 
of it. Many people have said that we need to trust our 
government because it hasn't let us down before. That bothers 
me once again, because the Founding Fathers, when they wrote 
our Constitution, said that no generation of America should so 
blindly say that they would trust the government.
    In fact, the Bill of Rights is misstated. It actually 
should be called the ``Bill of Wrongs.'' Things are wrong for 
the government to do no matter how many people or how many 
councils want to do them. And part of the Fifth Amendment was 
obviously the guarantee of due process, that no one could take 
away your property without due process.
    Am I wrong in assuming that that is perhaps what has 
happened here, that if the government wants to buy that from a 
willing seller, they should do it before they include it in any 
kind of Federal project, not after? And tell me if I am wrong. 
To me, the analogy is, if I was in the private sector and I 
went out and built a building, I would build a building on the 
land and then see if I could coerce the owner of the land into 
selling it to me, as opposed to buying the land first and doing 
it the appropriate way.
    Now, have I gone through that analysis in your mind in any 
way inaccurately?
    Mr. Knox. No, that is very accurate and it reflects the way 
we feel in the Missouri River Breaks area. When I say ``we,'' I 
mean the landowners. At one point, Mr. Tureck is correct that 
we did oppose the Monument designation. But in December of 
2000, when Secretary Babbitt announced to the media that he was 
going to recommend to the President that the area be designated 
a National Monument, if nothing else, at that time, they should 
have come to us and said, OK, here are the boundaries. We would 
like your input and your comments on what those boundaries will 
be, whether or not your private property is included, if there 
is a way we can draw your property out if you don't want it to 
be included in this designation. That was never done, and that 
is a matter of public record. It just didn't happen.
    Mr. Bishop. And I am sorry that didn't happen. I apologize 
for that. My time has expired.
    Mr. Rehberg. Thank you. Mr. Cummings?
    Mr. Cummings. I don't have any questions.
    Mr. Rehberg. Mrs. Christensen, if I could just make a 
couple of points to answer some of your questions, and that is 
I think the answer you received, if you heard at all, was a 
good one on the Wild and Scenic designation because what he 
told you was the Wild and Scenic designation was an Act of 
Congress. It was authorized. It was appropriated and managed as 
such. So it went through the public process, and the only way 
you can establish a Wild and Scenic Corridor is either through 
an Act of Congress or through the State Legislature, so you 
have the public process. In this particular case, you did not.
    The answer you heard from Mr. Tureck was incomplete on 
payment in lieu of taxes. I don't know you get your funds in 
your community, the Virgin Islands, for education, but in the 
State of Montana, being a former appropriator and a legislator, 
we get our money for education from property taxes. The problem 
is, payment in lieu of taxes doesn't go to schools, it goes 
back to counties for them to spend. So as the Federal 
Government purchases property that is deeded and takes it out 
of the taxpaying process, the schools lose the money. The 
counties are a beneficiary, not 100 percent, and that is part 
of the problem we have with payment in lieu and that is why we 
continue to beat up on every President since Washington, 
probably, to get them to fully fund payment in lieu, but there 
is not a transfer of 100 percent from schools back through the 
PILT to schools. It is lost to them. So I just wanted to 
clarify those points.
    One more question of Mr. Tureck, then I would like to turn 
to Mr. Knox, and that is, Mr. Tureck, you mentioned all those 
letters and all those signatures you got on all those 
petitions. Did one single person sign your letters and 
petitions that owned property inside the Monument?
    Mr. Tureck. I really can't tell you. I really can't tell 
you.
    Mr. Rehberg. Again, therein lies the problem. It is easy 
for somebody to plow their neighbors' field. I would just love 
to graze your property without your permission. You probably 
wouldn't like that. But I guess, oh well, it is in the greater 
good of me because my cattle need your grass, and that is 
essentially what you are saying by saying, in spite of the fact 
that 127 people that own 81,000 acres inside the Monument don't 
want their property in there, for the greater good of the 
Federal Government, we are going to include your property.
    Mr. Tureck. We have tried to find out the number of 
landowners inside the Monument. We have come up with 92, of 
which 20 percent live out of State. I am not sure that those 
have all been contacted. I would like to see all the letters of 
those who said, ``I want out,'' and signed.
    Mr. Rehberg. Well, Mr. Tureck, we are waiting to hear from 
one who wants to be included.
    Mr. Knox, a question for you. You obviously don't love the 
land as much as Mr. Tureck because you don't want your land to 
be protected. Are you mismanaging the McClelland Farm?
    Mr. Knox. No, we are not.
    Mr. Rehberg. Ironically, I will tell the Committee there is 
a conflict of interest. I did not know it. I didn't know Mr. 
Knox. He is the Chairman of the Land Stewards. But he actually 
farms my great-grandmother's homestead. It just is purely 
coincidental. I have no landownership up there, but if I ever 
find out you are mismanaging the McClelland Farm, you are in 
deep trouble. It is within the Wild and Scenic Corridor. It is 
now within the Missouri Breaks and it does deserve protection 
and, I assume, because you manage that property, you are 
managing it to the best of agricultural practices for the 
betterment of the Missouri Breaks. I hope that is true.
    Let me follow up on Mr. Bishop's question, then. Do you 
feel in any way, shape, or form, after you have been poked in 
the nose or the eye by the Federal Government, that you deserve 
to cooperate or you should cooperate with them in becoming a 
willing buyer and seller? I mean, what has created a warm and 
fuzzy feeling in your mind after they did this in the 12th hour 
of the Clinton Administration to make you want to participate 
or cooperate with the Federal Government?
    Mr. Knox. Well, that is a good question. You know, one of 
the--there are basically three categories of land that, as 
ranchers, we are virtually all dealing with, and that is 
private, State, and Federal, and they are intermingled. The 
country is rough. You can't fence away any given parcel of land 
easily or economically feasibly.
    And so what is required is cooperation, and when a kind of 
designation like this is imposed without a public process 
regarding boundaries and regarding private lands, and when the 
boundary is cutting through parcels of private land and 
constituting the perimeter boundary of a designation like this, 
it does create an atmosphere where cooperation is a little bit 
harder to come by. I would----
    Mr. Rehberg. Go ahead.
    Mr. Knox. Excuse me. I would like to point out in response 
to something Mr. Tureck said about nobody put in for the RAC 
that would be directly affected by this. I myself did in 1995 
during the Clinton Administration, and so did a neighbor of 
ours, Danny Boyce. The Boyce family is the second-largest 
landowner in the National Monument, and he and I both put in 
for the RAC. Our applications were turned down, but I believe 
that was 1995.
    Mr. Rehberg. Begging the Committee's indulgence, I would 
like to ask one more question, because I do have a ranch. That 
is what I did for a living before I became a Congressman three 
years ago and I do have public lands intermingled in a 
checkerboard fashion.
    As a result of public lands inside my property, I see a 
trespass problem, not because people don't respect private 
property, but because they think they have access to that 
public property even though it is wholly surrounded by private 
property. I assume--I will ask you the question. Do you have 
the same problem, and if you do, are the Federal agencies ever 
out there to help you with the trespass or do you end up being 
the cop confronting people, trying to explain to them that they 
are accessing land that is not public? In what way has the BLM 
helped you ameliorate the difficulties with trespassing?
    Mr. Knox. The particular piece of property that we have 
within the Monument boundary is on the upper end of the land 
that you referred to, the McClelland Homestead, and typically, 
we let people have access to it. It is a good fishing area and 
people like to camp there.
    So we, as the Knox Ranch, I can't say that that is a huge 
issue for us. But the Boyce family that I mentioned earlier, 
they own a large parcel in what is called Knox Ridge and there 
is a county road that runs through the middle of it. It is, of 
course, their summer range and it is a mixture of BLM and 
private, a large chunk of private land, and they have had a lot 
of problems.
    People simply aren't good map readers. When you draw a 
designation boundary around something, that confuses the issue 
even more. People say, well, you know, it kind of looks like 
maybe it is private land here on this map, but yet it is within 
this boundary. So maybe I am within my rights to be on this 
property.
    And so that is the reality of it. People just simply don't 
understand property rights issues in some cases, not all cases, 
but in some cases, and they don't understand the relationship 
between Federal and private and they can't read a map.
    Mr. Rehberg. Thank you. Mrs. Christensen?
    Mrs. Christensen. Thank you. I guess I have one question. 
Hopefully, it won't lead to others. But it just seems to me 
that the reason both Federal and private lands are included in 
this is that there are historic and scientific resources on 
both, so protection is needed for both and I guess that is why 
the private properties are included.
    What I don't understand is why the Congressional process is 
accepted, even though everything was not agreed to in a 
Congressional process, either, but the Presidential process, 
which has full authority under the Antiquities Act, just as 
much authority as the Congressional process had and which 
appeared to have had extensive public comment and a public 
process, the recommendations of which, as I understand it, are 
included in the Monument proclamation, why that is not 
accepted.
    Both have authority to be done. Both had public processes. 
Both have things that maybe some of the private landowners 
agree with and don't agree with. I don't see the difference. I 
mean, I don't see why there is such a strong objection to this 
process, especially since the property rights of the private 
landholder is not infringed upon.
    Mr. Knox. To answer your question, I would simply go back 
to the lack of public process on the boundary issue. When the 
Wild and Scenic River was created, I was, I guess, a high 
school kid then, but I remember my father was involved in it. 
In my memory, and to my knowledge, they were looking at maps 
before Congress passed that legislation.
    We weren't in this case, and it is maybe a little harder to 
swallow when it is done administratively. I am not saying that 
the Antiquities Act is wrong or inappropriate. I am just saying 
that for people on the ground, it is just a little harder to 
accept.
    Here again, I would go back to a fundamental difference, 
and maybe this is only the Missouri Breaks Monument. Maybe they 
had boundary discussions and saw maps on all the other ones, I 
don't know. But in this particular case, we didn't, and that is 
why I think this legislation--and we have talked a lot about 
precedents today. I think the good precedent that this 
legislation would create is that in the future, 
administrations, before they create a large Federal designation 
through administrative authority with the use of the 
Antiquities Act, that they would consult with landowners and 
have a very, very intense, I guess is the word I would use, 
public process regarding boundaries and how they affect private 
landholders. And if we could create that precedent, I think 
that people would be more accepting of the use of this kind of 
administrative power.
    Mrs. Christensen. Do you think that a Monument would ever 
get designated under that kind of a process? We are assuming 
that Monuments are designated because there is a resource that 
is in need of protection.
    Mr. Knox. Yes. I--did you have more?
    Mrs. Christensen. No. I just wanted to allow Mr. Tureck to 
also answer both questions after you are finished.
    Mr. Knox. OK. Yes, I believe this one probably would have 
been created with that kind of public process.
    Mrs. Christensen. OK.
    Mr. Knox. Because if they had, for example, if they had 
come to us with some kind of give-and-take public process that 
said, you know, we are probably going to do this, but do you 
want your property drawn in or out, and, you know, there are a 
lot of different ways we could do this, at some point, we would 
have sat down with them.
    Mrs. Christensen. Can I--my time is running out. Can I 
allow Mr. Tureck to also answer?
    Mr. Tureck. Yes. I would like to point out that I think 
this legislation really is indirectly an attack upon the 
Antiquities Act.
    Mrs. Christensen. Clearly.
    Mr. Tureck. OK, and I do that in part of Representative 
Rehberg's introductory statement questioning the legality of 
this Monument alone. The Antiquities Act is 95 years old and we 
have struggled with it for 95 years and yet it is still in 
place and is still intact and Presidents use it. Only three out 
of all the Presidents over the 95 years have not created 
Monuments. If this legislation were to pass, it would destroy 
the Antiquities Act, and that is what I think the intention of 
it really is.
    What was the other question you asked?
    Mrs. Christensen. The question was, what was the difference 
between--I thought that it was a public process that 
incorporated the public opinion before the proclamation of the 
Monument, as well.
    Mr. Tureck. Yes. See, the first Monument created by the 
Clinton Administration, the one in Utah, was done much as 
people said, in the heat of the night, you know, late at night, 
the Staircase Escalante.
    Mrs. Christensen [continuing]. Escalante.
    Mr. Tureck. After that, all of these other Monuments had 
extensive hearings, probably more extensive than the creation 
of any other Monument under the Antiquities Act by any 
President before. You remember the Grand Canyon was created as 
a Monument by Teddy Roosevelt. It was brought before the court, 
saying it was much too large, that it was not the smallest unit 
possible. It was thrown out of court. I mean, we have brought 
them before. Now, we are trying to legislate the Antiquities 
Act out.
    Mr. Rehberg. Thank you. I am going to take the opportunity 
not to let Mr. Tureck put words in my mouth. I do not oppose 
the Antiquities Act. Mrs. Christensen, if you will read the 
Antiquities Act, you will see it very clearly says, take no 
more land than is absolutely necessary and in imminent danger, 
and the question becomes, what was the imminent danger? Did 
they take more land than was absolutely necessary? And therein 
lies the problem that Mr. Knox talks about, the fact that if 
they had been given the opportunity to talk about the 
boundaries and what should be in and out, they probably could 
have come to a consensus, and I so strongly believe in the 
consensus process.
    Mrs. Christensen. Will the gentleman yield?
    Mr. Rehberg. I will yield.
    Mrs. Christensen. It is my understanding that the 
boundaries are, under the Wild and Scenic Rivers Act, the 
boundaries are drawn after----
    Mr. Rehberg. That is correct, but the management is 
determined beforehand. In this case, it is catty-wampus. They 
put it into the later hours of the Clinton Administration, and 
you can't deny that the reason it was done was because they 
wanted to get it done before they left office, and they left 
not only the boundaries unanswered without public input, but 
they hadn't talked about the management, either. They would not 
have done that. They would have given the Department the 
opportunity to establish the management protocol. In Wild and 
Scenic, very clearly, they have to determine under which 
conditions it was going to be managed.
    So again, you can see the reasonableness of Mr. Knox and 
his compatriots up on the Missouri River in being willing to go 
through the legislative process. They lost the issue. They 
accepted it. They don't have a particular heartache with the 
Wild and Scenic, but then you poked them again.
    Mr. Bishop?
    Mr. Bishop. I think, Mr. Rehberg, you just took my 
statement away right there. That is OK.
    [Laughter.]
    Mr. Bishop. Let me ask one question, Mr. Tureck. What were 
the three Presidents who used--which three Presidents used this 
Antiquities Act?
    Mr. Tureck. No, I said three did not use it. President 
Bush, President Reagan, and I am not sure of the other 
President. All of the other Presidents have used the 
Antiquities Act.
    Mr. Bishop. Eisenhower?
    Mr. Tureck. Yes.
    Mr. Bishop. And Franklin Roosevelt?
    Mr. Tureck. Yes.
    Mr. Bishop. And Hoover?
    Mr. Tureck. I think----
    Mr. Bishop. And Coolidge.
    Mr. Tureck. Yes.
    Mr. Bishop. And Harding.
    Mr. Tureck. And yes.
    Mr. Bishop. And if you say Taft, you will be accurate.
    Mr. Tureck. It has been used by Republicans.
    Mr. Bishop. In a uniquely different process, let me go 
through, and also to Mrs. Christensen, there is a difference in 
what you were talking about. In the one process, you asked if 
something could take place without the Antiquities Act. The 
Congressional process established in those situations does work 
and it has worked. In my State, there were four that had been 
done since 1950 that had been created in that process.
    The difference in the Antiquities Act is it has some 
specific guidelines that have to be in there to allow it to be 
an administrative process. The first one has to be the 
endangerment, the imminent danger, which, as the Department 
testified, they have no recollection of what that imminent 
danger was.
    The second one needs to be in the smallest area possible, 
which means there has to be the concept of a large area and 
then you come down to a smallest area. And once again as I am 
listening to the testimony of the Department again, you have 
reversed that process. You have started with the largest area 
and you have done nothing else. You haven't found the smallest 
area possible, the smallest footprint.
    And the final one, the Antiquities has to be done on land 
controlled by the Federal Government, not private property. 
That is an abuse of the Antiquities Act power that is there, 
which is why frequently, especially the last time was with 
President Truman, what he created in the Antiquities Act was 
uncreated by the next session of Congress because it violated 
those processes and procedures, and that is what I think you 
are talking about in this particular Monument in Montana. There 
are specific processes that are integral to the Antiquities Act 
that, at least from the testimony from the Department, were not 
there.
    Mr. Rehberg. Let me conclude by thanking the two other 
witnesses for patiently sitting through a battle within the 
State of Montana. Perhaps you have a better understanding of 
the kinds of issues that we have confronting us in natural 
resources. You both have very worthy causes and thank you for 
appearing before our Committee. And to the two gentlemen from 
Montana, thank you for taking time out of your busy schedules 
to be here with us, as well.
    Without further comment, this meeting is now adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]


</pre></body></html>
